~

MICHAEL E. JOSEPH

McAFEE&TAFT
A

PROFESSIONAL

.\:/~l"

CORPORATION

WRITER DIRECT

\

_ _J

(405) 552-2267
mike.joseph@mcafeetaft.com

10TH FLOOR. TWO LEADERSHIP SQUARE
211 NORTH ROBINSON. OKLAHOMA CITY, OK 73102-7103
(405) 235-9621 • FAX (405) 235-0439

www.mcafeefaft.com

ORIGINAL

May 26,2011

\I-\.. lRADE COMM/
S

~<0X-\\REc6gW1t/~
FEDERAL EXPRESS

MAY Z 7 2011

5SJ.j~q3

Donald S. Clark
Secretary
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Room 135-H
Washington, D.C. 20580
Re:

-

'uhit~

Norman Physician Hospital Organization

Dear Mr. Clark:
Enclosed is a request for an advisory opinion that we are submitting on behalf of Norman
Physician Hospital Organization and its members. The enclosures include:
•
•
•
•

One manually executed letter requesting an advisory opinion;
Two paper copies of the letter;
One electronic copy on compact disc; and
One copy of the letter with confidential information redacted.

We appreciate your prompt attention to this request.
Very truly yours,

~.~-J
Michael E.~~p( _.

Enclosures

6989442JDOC

OKLAHOMA CITY

TULSA

-_

............

PUBLIC
MICHAEL E. JOSEPH

McAFEE&TAFT
A

PROFESSIONAL

CORPORATION

WRITER DIRECT
10TH FLOOR. TWO LEADERSHIP SQUARE

(405) 552-2267

211 NORTH ROBINSON • OKLAHOMA CITY, OK 73102-7103
(405) 235-9621 • FAX (405) 235-0439

mike.joseph@mcafeetaft.com

www.mcafeetaft.com

May 26, 2011

ORIGINAL
FEDERAL EXPRESS

Mr. Donald S. Clark
Secretary
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Room 135-H
Washington, D.C. 20580
Re:

Norman Physician Hospital Organization

Dear Mr. Clark:
Pursuant to FTC Procedure Rules 1.1 through 1.4, 16 C.F.R. §§ 1.1-1.4 (2010), we
request an advisory opinion regarding proposed, prospective activities of Norman Physician
Hospital Organization ("NPHO") and its members. Specifically, NPHO proposes to restructure
operations and further develop a clinically integrated, centrally managed organization that offers
market efficiencies and facilitates innovation in the efficient delivery of high-quality health care
services to patients. As described below, NPHO will operate in a manner that creates a high
degree of interdependence, interaction, and cooperation among the participating physicians and
healthcare providers in order to improve quality of care and control costs. We ask the FTC to
auvise huw the FTC staff wuulu analyze this anallgeIIlellt and the recommendations, if any, that
the FTC staff would be likely to make if NPHO develops contract proposals, negotiates contract
terms, and enters into contracts with third-party payers for the provision of the clinically
integrated services described in this letter.

Part I of this letter provides background information about NPHO and its two founding
members, Norman Physicians Association ("NPA") and Norman Regional Health System
("NRHS"). Part II provides information about market characteristics and demographic
information, including an overview of location and service area characteristics, NPHO service
area hospitals, and physicians in the NPHO service area. Part III addresses NPHO's clinical
integration plan, including purposes and background of clinical integration; future plans for
enhanced clinical integration, including participation requirements and costs; organizational
arrangements necessary for clinical integration; and community benefits of clinical integration.
Part IV describes the contracting issues, including the historical approach to contracting, the
proposed approach, and an explanation of why joint contracting is essential for meaningful
clinical integration. Part V provides a brief legal analysis and commentary.

-2I.

BACKGROUND AND OVERVIEW

A.

Norman Physician Hospital Organization

NPHO is based in Norman, Oklahoma, which is part of the greater Oklahoma City
metropolitan area. It was founded in 1994 by NPA and NRHS as a physician-hospital
organization. NPHO's purpose is to provide, arrange for, and coordinate the delivery of high
quality, readily accessible, cost-effective health care services to residents of the communities
served by the physicians, hospitals, and other healthcare providers that comprise NPHO. Since
its inception, NPHO has helped to link health insurers, health plans, third-party administrators,
and employers to an established network of healthcare providers and professionals who share a
common interest in providing optimal healthcare. NPHO is organized as an Oklahoma limited
liability company and is owned equally by its two founding members, NPA and NRHS.
Additional information regarding NPHO can be found on its website: www.normanpho.com.
NPA is an Oklahoma limited liability company whose members are physicians that are
members of the medical staff of affiliated NRHS hospitals. NRHS is operated by Norman
Regional Hospital Authority, a public trust, and includes the following hospitals: Norman
Regional Hospital in Norman, Oklahoma; Moore Medical Center in Moore, Oklahoma; the
HealthPlex campus in Norman, Oklahoma; and Family Medicine Centers in Norman, Moore,
Newcastle, and Blanchard, Oklahoma. NRHS has obtained a single hospital license from the
Oklahoma State Department of Health covering Norman Regional Hospital, Moore Medical
Center, and facilities at the HealthPlex campus, each of which is otherwise a separate facility.
Purcell Municipal Hospital, which is a separately licensed hospital located in Purcell, Oklahoma,
is a participating hospital in NPHO. For convenience in this letter, we have referred to Norman
Regional Hospital, Moore Medical Center, the HealthPlex facilities, and Purcell Municipal
Hospital as the "Hospitals."
NRHS and NPA shared equally in the initial funding of NPHO, and they continue to
in the cost of
.
and
capital needs. The cost of operations_
is covered principally through withholds of fees
paid to NPHO for services provided in accordance with contracts entered into directly between
NPHO and several employers. In addition, individual physicians and medical group practices
are required to pay NPHO significant fees for the implementation and maintenance of electronic
medical records and an electronic interface software system. Each participating physician also
pays membership dues to NPA in the amount of $150 per year. While NPHO maintains a lean
operation and expects to continue to do so in the future, the operating costs of NPHO - which
can be expected to increase as the clinical integration plan is implemented - reflect a meaningful
investment by NPHO's members in the organization. NPHO believes that additional investment,
along with a substantial investment of time by participants in order to accomplish NPHO's
objectives, will result in significant clinical benefits and efficiencies in the organization's goal to
provide cost effective, quality health care services to patients.
share

A chart showing the organizational structure and relationships among NPHO members is
attached as Exhibit I to this letter. A copy of the NPHO Operating Agreement is provided as
Exhibit II to this letter.

-3-

1.

NPHO Historical Operations

NPHO was organized as a non-exclusive association of physicians in partnership with
Norman Regional Hospital for the purpose of collectively providing cost-effective, quality health
care services to the residents of the region. Initial physician membership of NPHO was
comprised of approximately 125 physicians. This included multiple groups of Pediatricians,
Family Practitioners, Internal Medicine physicians, and Obstetricians-Gynecologists.
Membership also included physicians specializing in Anesthesiology, Cardiology, Dermatology,
General Surgery, Gastroenterology, Neurosurgery, Neurology, Oncology, Ophthalmology,
Orthopedic Surgery, Otorhinolaryngology, Pathology, Podiatry, Psychiatry, Radiology, and
Urology.
Since its inception, NPHO has offered specialized benefit plans developed for use by
employers, third-party administrators, commercial health care payers and other purchasers of
care ("Payers"). These special benefit plans have created savings for those Payers, which should
in turn be passed along to the ultimate health care consumer, the patient. NPHO growth was
accomplished through the addition of more direct employer accounts and by entering into
contracts with PPOs, HMOs, and other commercial insurance Payers.

2.

NPHO Membership Today

As of August 1, 2010, 237 physicians who practice in 38 specialties participate in NPHO.
All of these physicians are members of NPA. Participation in NPHO is open to licensed
physicians who are willing to commit to the goals, objectives, and plans of the organization.
NPHO plans to continue to add physicians who practice throughout the service area.
Each physician member of NPHO joins through an application process that requires
submission of a letter requesting membership in NPA and, as a result, membership in NPHO.
An interested physician submits a completed application to the NPA Board of Directors, which
reviews the application and votes on acceptance of the applicant as a member. If an applicant is
accepted, NPA bills the new member a $350 membership fee and $150 annually for dues. After
the physician pays dues and enters into a contract with NP A, the physician signs all other
necessary documentation relating to NPHO membership. Membership fees and dues represent
. for NPA. NPHO
revenue for its
the primary source of
activities
expects withholds to increase slightly in order to provide sufficient working capital to
accomplish the clinical integration plan and objectives described in Part III.
Most of the physicians in and around Norman have chosen to participate in NPHO.
However, NPHO members represent less than 10% of all physicians in the NPHO service area
(which, as described in Part II, is roughly coextensive with the greater Oklahoma City
metropolitan area), and less than 10% of the total number of physicians in anyone specialty in
the NPHO service area are members of NPHO. In addition, a number of physicians who
maintain medical practices in Norman, Moore, Purcell, and other parts of NPHO's primary
service area do not participate in NPHO. For example, one neurosurgeon who chose not
participate believed he would not make enough money. Another pediatric specialist chose not to

-4participate because he was the only pediatrician in the area offering a particular subspecialty and,
therefore, could charge higher rates for his services.

3.

NPHO Governance and Management

NPHO is managed by a Board of Managers comprised of eleven representatives, one of
whom is the president of NRHS, two of whom are appointed by NRHS (with one vacancy at
present), and eight physicians elected annually by the members of the NPA. Physician managers
are elected annually by the members of NPA. The physician representatives include four
primary care physicians representing general internal medicine, family practice, pediatrics, and
obstetrics-gynecology, and four physicians practicing unduplicated specialties. The chairperson
of the NPHO board is always a physician who typically also serves as chairperson of NPA,
which assists in assuring organizational alignment. Each physician manager serves for a period
of three years and may be re-elected for additional terms. A table listing the members of the
NPHO Board of Managers is attached as Exhibit III to this letter.
NPHO currently maintains a staff of eight, including a full-time Executive Director, parttime Medical Director, full-time Quality Assurance Director, a contracts supervisor, a Director of
Physician Informatics, and three full-time technical personnel who provide information systems
training and support to participating health care providers and professionals. Additionally,
NPHO contracts with a physician who serves as the Medical Informatics Officer. A brief
overview of the background of each NPHO staff member is set forth in Exhibit IV to this letter.

4.

NPHO Contractual Arrangements

NPHO is a non-exclusive network. Physicians who are members of NPHO may enter
into contracts directly with Payers and are not required to limit their contracting arrangements
through NPHO. NPHO does not impose any restrictions or limitations on the ability of NPHO
physicians to become members of other physician networks or other provider networks. Some
NPHO physicians are members of other physician networks.
NPHO maintains a comprehensive credentialing oversight process for all participating
health care professionals to ensure quality medical care and services are provided within its
network. NPHO's credentialing requirements satisfy the standards of The Joint Commission and
guidelines of the National Council of Quality Assurance.
To the extent the services of specialists or other health care professionals are not
available through NPHO physicians, patients and Payers may obtain those services directly from
other physicians and health care professionals. In those situations, NPHO physicians will
typically refer patients to other specialists in the greater Oklahoma City area for care. NPHO
does not enter into contracts for those services. For example, if patients require care or treatment
by pediatric gastroenterologists, pediatric oncologists, pediatric cardiologists, pediatric
pulmonologists, or other pediatric subspecialists who are not members of NPHO, then NPHO
pediatricians and other NPHO physicians will refer patients to those subspecialists for care.

-5-

B.

Norman Physicians Association

NPA was fonned as an Oklahoma nonprofit corporation 1987, seven years before the
creation of NPHO. The focus of NPA was to offer and promote high quality, reputable medical
and dental care to employers and other consumer groups at the lowest rate commensurate with
the provision of high quality care. NPA also coordinated and administered contracts between its
members and various Payers, and developed and operated a utilization review program for its
members.
NPA members are licensed physicians, dentists, and podiatrists who:

• satisfy the current admission criteria for the medical staff of affiliated Hospitals;
• comply with the credentialing plan of NPA;
• pay required fees, dues, and assessments;

• want to supply cost-effective, high quality medical care to qualified individuals;
• agree to be bound by and maintain the standards of medical care developed by NPA;
• execute a Participation Agreement with NPA; and
• are approved by the Board of Directors of NPA.
NPA is governed by an eight-member Board of Directors elected by the membership.
The Board of Directors is responsible for managing and conducting the business of NPA. It has
the authority to select and remove officers, agents, and employees; to conduct, manage, and
control the affairs and business of NPA; to incur indebtedness on behalf of NPA; to assess and
collect membership fees and dues; and other powers necessary to manage the business affairs of
NPA. The election of directors and the approval of any action by the members require the
affinnative vote of a majority of the members present in person or by proxy at a meeting. A
copy of the Bylaws of NPA is included as Exhibit V to this letter.
As noted above, NPA members are assessed an initial membership fee and annual dues.
of
The Board of Directors may assess additional dues from each member through the
withhold from fees
the
Membership may be tenninated, without
reimbursement of membership fees, when a physician no longer satisfies any of the membership
eligibility requirements.
C.

Norman Regional Hospital Authority and Norman Regional Health System

NRHS traces its origin to Nonnan Municipal Hospital, a 61-bed hospital that opened in
1946. In 1984, Nonnan Municipal Hospital changed its name to Nonnan Regional Hospital to
better reflect the expanding geographic boundaries of the communities it serves. The stated
objective of NRHS is to offer easily accessible, cost-efficient health care services that prevent
diseases or lessen their severity, while promoting health and wellness in the communities served.

-6Currently, NRHS is comprised of:
•
•
•

Norman Regional Hospital, a 337-bed acute care hospital located in Norman,
Oklahoma, that offers a wide range of inpatient, outpatient, and emergency services;
Moore Medical Center, a 46-bed community hospital located in Moore, Oklahoma;
and
HealthPlex, a new acute care hospital and medical campus in Norman specializing in
cardiology and cardiovascular care, orthopedics and spine care, services for women
and children, and emergency care.

Before 1969, Norman Regional Hospital was owned and operated by the city of Norman.
In 1969 Norman Regional Hospital Authority was created to operate Norman Regional Hospital.
The hospital is now owned in part by Norman Regional Hospital Authority and in part by the
city of Norman. Under a Lease Agreement dated April 1, 1970, the city leased the hospital
campus to Norman Regional Hospital Authority. In March 2007, Norman Regional Hospital
Authority acquired Moore Medical Center through a bankruptcy auction bid. In 2008 NRHS
initiated construction of the new HealthPlex facility. Norman Regional Hospital, Moore Medical
Center, and HealthP1ex operate under a single hospital license issued by the Oklahoma State
Department of Health.
NRHS is governed by the Board of Trustees. Trustees are appointed for terms of three
years by the Mayor of Norman and confirmed by the Norman City Council.
The Norman Regional Hospital campus is situated on approximately 30 acres. Nursing
beds are located in four towers: a five-story tower constructed in 1968 and expanded in 1972; a
five-story tower constructed in 1981; a three-story tower constructed in 1992; and a three-story
tower constructed in 1995. In addition to the inpatient care towers, the main campus also
includes a Cancer Management Center, an Education Center, three support buildings, an
ambulance facility, and a hospitality house.
Moore Medical Center includes the hospital and two medical office buildings. It is
located approximately 8.6 miles from the principal campus of Norman Regional Hospital.
Norman Regional Hospital Authority developed a third inpatient hospital and related
campus - the HealthPlex - on a 95-acre site located four miles west of the original Norman
Regional Hospital campus and five miles south of the Moore Medical Center campus. Among
other facilities and services, the HealthPlex includes a 36-bed heart hospital, a 36-bed women's
and children's hospital, and a 28-bed orthopedic and neurosurgical hospital.
Purcell Municipal Hospital is a 39-bed community hospital located in Purcell, Oklahoma.
Purcell Municipal Hospital is not owned or operated by Norman Regional Hospital Authority,
but is a participating hospital in NPHO.
A table highlighting services provided by the Hospitals is provided in Exhibit VI to this
letter.

-7The medical staff of the Hospitals is comprised of physicians, oral surgeons, and
podiatrists who represent a broad range of medical and surgical specialties. Nearly all members
of the medical staff of the Hospitals are NPHO participating physicians.
NPHO participating physicians are not required to refer or admit patients to NHRS
facilities, Purcell Municipal Hospital, or other health care providers that participate in NPHO.
Referral and admission decisions are based on the medical needs of the patient and patient
preference. While these guidelines will continue to drive future referral and admission decisions,
it is anticipated that enhanced clinical integration of NPHO will increase utilization of NPHO
participating providers and help to assure that patients, insurers, health plans, employers, and
health care providers benefit from NPHO's Clinical Integration Plan, as described in Part III.
If participating hospitals do not offer the programs, facilities, or capacity to provide
medically necessary care for patients of NPHO physicians, then NPHO physicians will typically
refer the patients to other hospitals in the Oklahoma City metropolitan area that can provide the
needed services. NPHO does not maintain contractual relationships with other hospitals relating
to the provision of care to patients.

II.

MARKET AND DEMOGRAPIDC INFORMATION

This section and Exhibit VI to this letter contain market and demographic information.
As this information shows, the NPHO service area overlaps almost entirely with the boundaries
of the Oklahoma City metropolitan area and the Oklahoma City Combined Statistical Area
("CSA"). The NRHS Hospitals make up less than 10% of the hospitals in the CSA, and NPHO
discharges are similarly small percentages of the discharges of the Oklahoma City area hospitals
as a whole. Likewise, NPHO physicians make up a small fraction of the physicians in the CSA.
As a practical matter, patients across the NPHO service area and the Payers that NPHO
physicians contract with enjoy numerous adequate substitutes for NPHO services.
The remainder of this section reviews and summarizes certain pertinent information
regarding location and service area characteristics; NPHO service area hospitals; and physicians
in the service area. Exhibit VI includes additional information about:

• Service area demographic information (Exhibit VI.A)
•

•

•
•

•
•
•

Population and density data, and narrative profile, of NPHO Service Area (Exhibit
VI.B)
Patient Populations and Insurance Coverage Estimates (Exhibit VI.C)
Employers and employees in the service area (Exhibit VI.D)
Available data regarding Health Insurance Plans, HMOs, Discount Medical Plans,
and Third-Party Administrators (Exhibit VI.E)
Medical, surgical, diagnostic, and ancillary services provided by participating
hospitals (Exhibit VI.F)
Other ancillary service providers (Exhibit VI.G)
Physician Shortages in Selected Specialties (Exhibit VI.H)

-8A.

Location and Service Area Population and Characteristics

NPHO Hospitals are located in central Oklahoma, in Cleveland and McClain counties.
The medical clinics and offices of the NPHO physicians and the facilities of other participating
health care providers are located in Norman, Moore, Blanchard, Newcastle, Purcell and Noble.
Based on hospital patient origin data, NPHO serves a six-county area, including patients from
Cleveland, Garvin, Grady, McClain, Oklahoma, and Pottawatomie counties. As seen in Exhibit
VI.A and Exhibit VI.B, according the U.S. Census Bureau, an estimated 1.13 million persons
resided in the six-county NPHO service area as of 2008. Almost 85% of these residents reside in
Oklahoma and Cleveland counties.
The contiguous six-county NPHO service area encompasses a land area of 4,511.8 square
miles with 759.5 residents per square mile. These counties are interconnected through a system
of interstate highways, state highways, and major roads, all of which share comparatively low
traffic density and provide easy and unusually efficient access from one area to another. Indeed,
Oklahoma City (which is in Oklahoma County) is an integral point in the U.S. Interstate
Highway system; the area is bisected north and south by 1-35 and west to east by 1-40 and 1-44.
The NPHO service area overlaps significantly (if not entirely) with the boundaries of the
Oklahoma City metropolitan area and the Oklahoma City CSA. With an estimated 2008
population of 1.206 million, the metropolitan area is comprised of seven counties: Canadian,
Cleveland, Grady, Lincoln, Logan, McClain, and Oklahoma. The CSA also includes the microurban area of Shawnee (Pottawatomie County), which brings the region's population to 1.275
million. Patients can cross the Oklahoma City CSA in nearly any direction in a drive of no
longer than 45 minutes to an hour.
Demographic data for NPHO's six-county service area is available in Exhibit VI.A.
Population data, land area information, and a narrative profile, by county, is available in Exhibit
VI.B. Median household income and poverty statistics and insurance coverage estimates for the
NPHO service area, also broken down by county, is available at Exhibit VI.C. A summary of
NPHO service area employers and employees, and health insurance plans, are available at
Exhibit VI.D and VI.E, respectively.
B.

NPHO Service Area Hospitals

According to the Oklahoma State Department of Health, 35 licensed hospitals are located
in the six-county NPHO service area. Hospitals are licensed by the Department of Health as
acute care/long term care hospitals, psychiatric hospitals, and rehabilitation hospitals. Of the
total licensed hospitals in the six -county area, 24 are acute care hospitals, four are long term care
facilities, two are psychiatric hospitals, and four are rehabilitation hospitals. There are no critical
access hospitals in the NPHO service area.
Of the 24 acute care hospitals, 16 are considered to be general acute care hospitals and
eight are specialty hospitals that limit services primarily to surgery, orthopedic, cardiology, or
women's services. Nineteen of the acute care hospitals are located in Oklahoma and Canadian
counties, the two service area counties with the greatest concentration of service area residents.
Bisected by 1-35 and 1-40, and encompassing a 1,246 square mile area with 697 persons per
square mile, these two counties account for 84% of the estimated 2009 NPHO service area

-9population and 95% of NPHO service area physicians. Residents of the four surrounding NPHO
service area counties may reach nearly any metropolitan area hospital or physician in less than an
hour of travel time.
Norman Physician Hospital Association
Location of Acute Care Hospitals

o

McClain

Acute care hospitals in the NPHO service area include a total of 4,429 staffed beds.
Collectively, these hospitals admitted about 213,000 patients in 2006. As seen in Tables 1 and 2
below, as of 2006, Hospitals affiliated with the NPHO represent approximately 9.96% of total
beds operated by acute care hospitals in the NPHO service area and 9.44% of reported hospital
admissions. As shown in Table 3, below, Norman Regional Hospital, Moore Medical Center,
and Purcell Municipal Hospital captured a combined market share of 13 % of NPHO service area
acute care hospital discharges. Table 3 also provides a breakdown of patients discharged from
the six-county area by county and hospital, which reveals that combined hospital market share
ranged from a low of 2% of Oklahoma County discharges to a high of 60% of McClain County
discharges.

-10Table 1
Service Area Acute Inpatient (Non-Federal) Facilities, 2006
Acute Care Facility
Beds
County
',,'.' <,:", .' .. ,'" '.:
'
,
'
'{:'~i~{:.:;:c,
:'s~~l~t;Ar¢~M!l~ketk; . ,·}t,·'
'::.":.,.,,,.
>.,';'/'::":,c." .).;.'. . ,
Grady Memorial Hospital
55
Grady
Purcell Municipal Hospital
30
McClain
11
Bone and Joint Hospital
Oklahoma
49
Community Hospital
Oklahoma
Deaconess Hospital
273
Oklahoma
92
Edmond Medical Center
Oklahoma
570
INTEGRIS Baptist Medical Center
Oklahoma
358
INTEGRIS Southwest Medical Center
Oklahoma
23
Lakeside Women's Hospital
Oklahoma
78
McBride Clinic Orthopedic Hospital, LLC
Oklahoma
Mercy Health Center
338
Oklahoma
255
Midwest Regional Medical Center
Oklahoma
46
Moore Medical Center
Oklahoma
Northwest Surgical Hospital
9
Oklahoma
Ok. Center for Orthopedic & Multi-Splty
10
Oklahoma
78
Oklahoma
Oklahoma Heart Hospital
18
Oklahoma Spine Hospital
Oklahoma
Orthopedic Hospital
8
Oklahoma
OU Medical Center
587
Oklahoma
499
St. Anthony Hospital
Oklahoma
Unity Health Center
160
Pottawatomie
TOTAL Non-NPHO Hospitals
3,988
,,'

',".,

.

Admission
.:
.
'

,

.,,"

,

....

2,767
1,436
786
1,412
12,686
3,903
24,230
16,128
2,677
2,820
17,910
16,919
3,533
594
160
7,410
1,769
190
30,203
19,212
6,464
193,375

Table 2
NPHO Service Area Acute Inpatient (Non-Federal) Facilities, 2006
Acute Care Facility
··;~~)T·.
S¢UJ.;el\rea Mltr~etc:,:'~~:
Norman Regional Hospital
Lindsay Municipal Hospital
Pauls Valley Hospital
Total NPHO Hospitals
Total Non-NPHO and NPHO Combined
NPHO Percentage of Total Service Area

County

Beds

'::',"';'

'

. ". ,:., ~:':: ;:.: .~ .

Cleveland
Garvin
Garvin

Admission
,,':::

365
26
50
441
4429
9.96%

17,293
1,034
1,840
20,167
213,542
9.44%

-11-

Table 3
Discharges by Acute Care Hospital and County, 2006
(NPHO Hospitals Highlighted)
Subtotal
Hospital
Cleveland Garvin Grady
McClain Oklahoma Pottawatomie
489
Bone and Joint
27
17
40
62
9
334
916
Community
46
272
88
34
438
38
Hospital
10,515
Deaconess
47
195
648
65
9,423
137
Hospital
2,889
Edmond Medical
40
9
2,681
47
102
10
2,137
Grady Memorial
2,063
43
4
23
1
3
2
Healdton
1
0
0
1
0
0
Municipal
16,431
Integris Baptist
274
636
211
431
1,716
13,163
14,479
84
Inte~is Southwest
574
2,638
190
10,782
211
1,943
Lakeside
231
9
89
22
11
1,581
Lindsay Municipal
527
96
10
351
1
21
48
1,446
56
McBride Clinic
92
236
42
904
116
Orthopedic
12,275
Mercy Health
305
57
87
10,914
175
737
Center
167
Mercy Memorial
117
4
0
28
12
6
15,039
Midwest Regjonal
29
60
25
1,173
12,906
846
29
nMqpie M~ajcal~{<:;; . .
2,312
iI9
'>/&.,;~3, '.';}';' 79~~' /;'};; ,;\,~/ 48 ,,<'~:/.: 3,333
~'998 ;-;)~~" gHfs F.>;;,j/':::< .••.... '406 )\15,683
1,293
10;979
.1~rdfib.aIi W~gi.onfif:&·< ,.
1,~97
2
Northwest Surgical
369
17
12
45
5
288
110
Oklahoma Center
5
8
36
3
51
7
for Ortho
3,272
Oklahoma Heart
340
180
60
2,059
351
282
846
34
71
Oklahoma Spine
117
19
557
48
124
2
5
Orthopedic
26
11
0
80
Hospital
574
21,269
OUMedical
2,072
306
187
17,341
789
Center
1,651
Pauls Valley
1,598
8
0
9
18
18
General
.
PlItce,ll Mun!¢ipal '. ....,., . ·········,.326 .· . ),6$:. (~', '25', .: . >'- . 71fr;.··· - ..
1,39Z
37:
Seminole Medical
1
39
31
0
4
3
0
15,842
St. Anthony
155
434
1,559
92
12,976
626
4,421
Unity Health
1
3
3
4,283
63
68
4,802
All Other
113
693
78
2,988
571
359
152,936
TOTAL
7,677
2,893
26,591
5,300
101,276
9,199
•.·.s\·'aO%
17%', . .; 60% ':,
/2%
'·~$1.% ',.'
NPUQ Market·
]3%
"'~%~
-'-"":"
.
"
-::./;:: . : ..>:,.- '. .
~-..:;;:~/
.....
. ...: ..... .. : .
",,' .
......
Sh£t·
:::~.
/
'.

'

.',

-, :,,:~. -.:'

,Ce',I •.':.,:;

,-;"':~~-':-~:':'

",.J'

.

Z6

"":"<"' }

;,

The data in the tables show significant competition and suggests a high cross-elasticity of
demand between the hospitals operating in the six-county area. By any of these measures,
NPHO Hospital market share is constrained by competitors in the Oklahoma City CSA.

-12-

C.

Physicians in the Service Area

As with hospitals, when evaluating physician data, NPHO (whose physician members are
members of the medical staff of NRHS or Purcell Municipal Hospital, with clinical privileges at
one or more of the NPHO Hospitals), make up a small fraction of the greater Oklahoma City
CSA physicians. Specifically, as shown in Table 4 below, as of August 1, 2010, 237 physicians
participated in NPHO. Information obtained from the Oklahoma Board of Medical Examiners
and Oklahoma Osteopathic Association indicates that approximately 2,950 active physicians
under the age of 75 are licensed to practice medicine in the NPHO six-county service area.
Thus, physicians affiliated with NPHO currently comprise about 8% of service area physicians.
Approximately 53% of active physicians under the age of 75 practicing in Cleveland and
McClain counties are NPHO providers.
Many NPHO participating physicians also hold medical staff appointments at other
hospitals in the Oklahoma City metropolitan area, exercise clinical privileges at other area
hospitals, admit patients at other area hospitals, and provide patient care services at other area
hospitals. For example, NPHO participating physicians hold medical staff appointments,
exercise clinical privileges, admit patients and provide patient care services at INTEGRIS
Southwest Medical Center (Oklahoma City); Midwest Regional Medical Center (Midwest City);
OU Medical Center (Oklahoma City); St. Anthony Hospital (Oklahoma City); INTEGRIS
Baptist Medical Center (Oklahoma City); Mercy Medical Center (Oklahoma City); Deaconess
Hospital (Oklahoma City); Oklahoma Heart Hospital (Oklahoma City); Pauls Valley General
Hospital (Pauls Valley); Grady Memorial Hospital (Chickasha); Unity Health Center (Shawnee);
and other area hospitals. Additionally, NPHO participating physicians hold medical staff
appointments, exercise clinical privileges, admit patients, and provide patient care services at a
number of ambulatory surgery centers in the Oklahoma City metropolitan area
Table 4 below provides a breakdown of the number of participating NPHO physicians by
specialty. It does not include physicians employed or assigned by NorStar (the company
responsible for providing emergency physician coverage at the Hospital) who work on a parttime basis at the Hospitals.

Table 4
Norman Physician Hospital Organization
Participating Providers by Specialty
August 1, 2010
I Specialty

··1!rimary.(3are;

Providers
.'

:,.;'.'"

Family Medicine
Internal Medicine (General)
OB/GYN
Pediatrics (General)

Surgical SpecioJists':
Thoracic Surgery
General Surgery

'/~.(

.......,.

.,'

£:,

I Specialty
M~dlcalSpt!cialists

30 Cardiology
18 Dermatology
17 Endocrinology
11 ENT
j/'i Gastroenterology
1 Geriatrics (1M)
9 Infectious Disease

I Providers I
.. '.

"

9
3

1
6
6

1
1

-13GSNascular Surgery
General Surgery!Breast
Neurosurgery
Ophthalmology
Orthopedic Surgery
Plastic & Reconstructive Surgery
Urology
'iliis.PltaiJ1ise'ft'~1C
,a ... ' "!,,,
.

.

.. ', • . ,

'.

r, ..

3
1
2
5
10

1
3

'. .. ' ;. '<!\~,t:\·
.
.~:h.: :."';"/'.

... "
......
.: ....... c)."

Anesthesiology
Anesthesiology (CRNA, MSN)
Emergency Medicine
Hospitalist (1M)
Pathology
Radiology

Neonatology
Nephrology
Neurology
Oncology!Hematology
Physical MedicinelRehabilitation
Podiatry (DPM)
Psychiatry
Pulmonology/Critical Care/lntensivist
Radiation Oncology
Rheumatology
Wound Care
Other

11
17
12
6
4
8 TJ1J@i~~/\' ."

,,;},'f'

5
2
4
5
3
3
7
7
4
3
3
0

.' . . "~':;<';?'<f';;'< .

'.';';

:Z37j,~;

Table 5 below sets forth information about all physicians under 75 years of age across the
six-county NPHO Service area, broken down by specialty area.
Table 5
Service Area Physicians by Specialty (Age <75)

I Specialty
pri",i{~ tJij/re

I Providers I Specialty

•. ,<:, . .

:£,.'
Family Medicine
Internal Medicine (General)
OB/GYN
Pediatrics (General)

Slltgicat$;peciitlists "~;';;

Medical S.p1~tillists
461
342
156
180

',:, ,~:%C{~;i:'~liF:;:.·r

Thoracic Surgery
General Surgery
GSNascular Surgery
General Surgery!Breast
Neurosurgery
Ophthalmology
Orthopedic Surgery
Plastic & Reconstructive Surgery
Urology
Hospital}iJa!$~d

..:,.
:.'.'.

Anesthesiology
Anesthesiology (CRNA, MSN)
Emergency Medicine
Hospitalist (1M)
Pathology
Radiology

14
116
4
112
36
86
135
27
48
'.'::'

':

,.'.

223
NA
151
6
81
153

Providers

>l"r;,:,

:".;(?:~:.;:iDF;;.

Cardiology
Dermatology
Endocrinology
ENT
Gastroenterology
Geriatrics (1M)
Infectious Disease
Pediatric - Neonatology
Nephrology
Neurology
Oncology!Hematology
Physical Medicine/Rehabilitation
Pediatric Medical Subspecialty
Podiatry (DPM)
Psychiatry
Pulmonology/Critical Care/Intensivist
Radiation Oncology, Therapeutic Rad
Rheumatology
Wound Care (Multiple Specialties)
Other
.
·T()TAL;;.,·~F .... ,,)W~' . ...
'"

~

97
34
16
42
34
9
12
16
17
50
23
17
32
NA
157
39
20
18
NA
102
-_ ..
. "'2;950'

-14Further infonnation regarding medical, surgical, diagnostic, and ancillary services
provided by participating Hospitals is available at Exhibit VI.F. Information regarding other
ancillary service providers is available at Exhibit VI.G. Infonnation reflecting physician
shortages in selected specialties as applied to the 2010 estimated population of the NPHO service
area is compiled in Exhibit VI.H.
III.

CLINICAL INTEGRATION PLAN

A.

Purposes and Background

While NPHO has not fully reached its potential for clinical integration, clinical
integration has been a major focus of NPHO almost from its inception. For many years, the high
cost and limitations of the resources available to support clinical integration served as barriers to
plan development and implementation. During a planning retreat five years ago, the NPHO
Board of Managers initiated a detailed evaluation of the potential benefits of clinical integration
and concluded that clinical integration would result in the following benefits to patients,
providers, and purchasers of health care services:
•

Improved care through the rapid electronic transfer of patient clinical infonnation
among the participating providers responsible for the diagnosis of illnesses, injuries,
and diseases, along with collaborative development and implementation of treatment
guidelines and plans.

•

Improved patient outcomes through the development, implementation, and
monitoring of evidence-based clinical practice guidelines that reflect good practices.
Guidelines established and actual perfonnance would be benchmarked against NPHO
provider peers at the regional and national levels.

•

Improved utility of data resulting from NPHO's ability to collect, analyze, and
communicate data compiled from providers and Payers.

•

Reduced cost of care through sharing of laboratory, imaging, and other tests and
corresponding elimination of the unnecessary duplication of these services.

•

Improved patient satisfaction through the elimination of repetitive completion of
registration paperwork, and timely provision of infonnation regarding current
treatments, resulting in more effective care management.

•

Improved care and reduced cost of care by reduction in medical errors, better
infection control rates, shorter hospital stays, lower Hospital re-admission rates,
earlier disease detection, and better disease control procedures.

•

Improved patient access to care through immediate referrals, electronic patient file
sharing, and e-prescribing.

•

Elimination of the need for Payers to complete independent and redundant
credentialing and peer review processes.

•

Elimination of the need for Payers to create, implement, and monitor independent and
redundant quality improvement processes, while improving provider participation.

-15-

• Creation of a competitive advantage for Payers and self-insured employers through
documentation of enhanced outcomes, reduced cost, and increased patient
satisfaction.

• Position NPHO to participate more fully with Medicare and Accountable Care
Organizations.
Further, as a result of historic working relationships among NPHO Members, the Board
recognized that NPHO was well positioned to rapidly implement and quickly achieve the
benefits of clinical integration. Accordingly, the Board authorized the leadership of NPHO to
move forward with the development of a plan to use the power of clinical integration to deliver
better health care to patients.
During the subsequent planning process, NPHO Chairman Stephen Connery, MD and
NPHO Executive Director Gary Clinton attended conferences in Las Vegas, Atlanta, and
Orlando hosted by the American Association of Integrated Healthcare Delivery System that
detailed the impact of clinical integration through the use of electronic medical records and better
collaboration among physicians. These concepts were also discussed at numerous NPHO Board
meetings and annual NPA meetings. Planning guidance was also requested of NPHO legal
counsel.

Electronic Medical Records. Selection of an electronic medical record system has been
a cornerstone of the NPHO Clinical Integration Plan to date. In 2007, after the NPHO staff
evaluated several options for the electronic medical record and related electronic information
interface, NPHO selected the Medicare-approved electronic medical record solution developed
by eClinicalWorks, a company based in Westborough, Massachusetts, now serving 40,000
providers in all 50 states.
In addition, the company has developed an electronic information interface, Electronic
Health Exchange (eEHX), which allows for the two-way communication of clinical information
between a physician's office and hospital information systems. eEHX is the foundation of the
Oklahoma Physicians Health Exchange (OPHX®). eEHX serves as a local "hub" for the
coordination of patient data so that NPHO providers can collectively and more effectively
monitor and manage patient care and promote patient safety, while reducing costs due to the
continuity and coordination across providers. eClinicalWorks includes an electronic prescription
system that interfaces with local pharmacies. OPHX® will allow NPHO providers to
appropriately share outpatient information with participating providers across the state.

-16-

In 2008, NPHO hired a full-time support person to service its network members by assisting with
the installation of the technology, training physicians and staff, and providing ongoing
maintenance and supportto physicians for eClinicalWorks and eEHX. In addition to purchasing
the software licenses for its network providers, including ancillary providers, NPHO pays the
18% annual maintenance fee for the electronic data services. NPHO plans to continue offering
this support to its network members at its expense, while participating physicians incur the
installation costs for their individual offices. NPHO's financial investment in eClinicalWorks
and eEHX was approximately
NRHS has also committed to facilitating NPHO's utilization of electronic medical
records. In 2007, NRHS purchased and implemented the Medi-Tech System to transition the
NRHS facilities to an electronic medical record system. NRHS, in conjunction with NPHO, has
been able to provide interfaces between eClinicalWorks and Medi-Tech so physicians have bidirectional reporting on laboratory, radiology, and other hospital reports. NRHS also hosts the
eEHX® (OPHX®) software for exchange of information between physicians, the hospitals, and
emergency departments. OPHX® is also connected to the RHIO (Regional Health Information
Organization) through SMRTNET, providing NRHS with a single source for information about
patient care delivered by health care providers that do not participate in NPHO.

Clinical Practice Guidelines. NPHO is currently utilizing the Healthcare Effectiveness
Data and Information Set ("HEDIS") for clinical practice guidelines.
HEDIS is a
comprehensive set of standardized performance measures developed by the National Committee
for Quality Assurance. HEDIS is a tool used by more than 90% of America's health plans to
measure performance on important dimensions of care and service.
The primary goal of the NPHO Clinical Integration Plan is to improve patient care and
resulting clinical outcomes. Secondary goals include increased efficiency of care delivery and
corresponding reductions in the cost of providing care. The electronic medical record system
sets the framework for continued and enhanced clinical integration. But the full benefits of
clinical integration have not yet been achieved.

Organizational Structure. In support of the clinical integration plan, NPHO has created
a separate organizational structure for clinical integration that will work under the direction of
the Board of Managers to accomplish identified goals. Key organization steps that NPHO has
taken thus far include:
•
•
•
•

•

Appointed Jim Love, MD, to serve as Medical Director;
Contracted with Brian Yeaman, MD to serve as the Medical Informatics Officer;
Hired a registered nurse to serve as the Quality Assurance Director;
Established a "Mentor's Committee" to oversee global quality improvement planning
including approval of protocols, monitoring of implementation and enforcement of
adherence to guidelines; and
Created "Specialty Advisory Groups," which include all members of NPHO, to
establish specialty specific clinical practice guidelines and consult on tracking,
collection, and analysis of data to identify improvement opportunities.

-17-

B.

Plans for Continued and Enhanced Clinical Integration Going Forward.

Attached as Exhibit VII to this letter is a copy of the proposed, new Participation
Agreement that NPHO plans to distribute to its members. The NPHO board has approved the
new form of Participation Agreement, but NPHO has not yet entered into the new Participation
Agreement with any member. Under the proposed, new Participation Agreement, each
participating physician must agree to actively participate in, and fully comply with, NPHO's
clinical integration plan, policies and procedures, including:

• participate in NPHO's electronic medical record and electronic information interface
•
•

•
•

or an acceptable data equivalent;
participate in quality assurance and utilization management programs;
comply with clinical practice protocols and guidelines;
participate in peer review; and
utilize NPHO physicians and practitioners, as well as NPHO hospitals and health care
facilities, for the care and treatment of patients, subject to the patients' medical needs
and preference.

The NPHO Board of Managers and Members believe that continued and enhanced
clinical integration will allow NPHO to reduce waste and improve communication among
practitioners, with resulting improvements in patient care, reduction in health care costs, and
enhanced competition with other area health care providers. It will also provide NPHO with a
built-in mechanism to achieve a community electronic medical record system at low cost and
with local technical support. As the AMA has recognized, clinical integration may offer the
most efficiency in multi-specialty settings (like NPHO) "in which primary care physicians
coordinate patient care with specialists and the various specialists coordinate care among
themselves."l
While clinical integration is a somewhat imprecisely defined concept within the health
care industry, NPHO believes that its goals for clinical integration can best be achieved if certain
core elements are included:

I

See American Medical Association, "Competing in the Marketplace: How Physicians can Improve Ouality and

Increase their Value in the Health Care Market through Medical Practice Tntegration," al 10 (2nd Rd.) 2010,
available at http://www.ama-assn.orglamal/pub/upluad/mm/368lcumpeling-in-markeLpdf.

-18-

• a unified electronic medical record links each participating physician and provider,

•

•
•
•

offering the potential for improved patient care, reduction in waste, reduction in
medical errors, better assessment of care, and enhanced communication among
practitioners;
all participating physicians and providers participate in meaningful and ongoing
improvement activities, including developing and utilizing clinical practice
guidelines, monitoring patient care outcomes, and sharing data with other
participating physicians;
the organizations hold physicians and other providers accountable for achieving
efficiencies in providing care, continuously assessing care in an effort to improve care
processes and reduce waste;
all participating physicians and providers demonstrate a significant commitment of
time and financial resources; and
all participating physicians and providers are required to participate in all agreements
with Payers.

The following sections address how NPHO plans and proposes to achieve these objectives.

1.

Realizing the Full Potential of an Electronic Medical Record System

A robust electronic medical records system will allow physicians to share clinical
information concerning patients and enable physicians to collaborate in and coordinate patient
care by providing immediate access to medical data. Going forward, NPHO's electronic medical
record system will be a critical component of NPHO's infrastructure to facilitate implementation
of NPHO's clinical integration plan. It will facilitate data collection, outcomes measurement,
utilization management, and performance reporting required by Medicare and other Payers.
As of this time, NPHO has invested in 130 licenses for its participating physicians to
install and use eClinicalWorks and eEHX on their office systems. To date, 130 physicians and
other health care professionals have purchased those licenses. Upon implementation of the
proposed, new clinical integration plan, all physician members will be required to install and use
eClinicalWorks and eEHX (or an acceptable data equivalent). As explained below, to do so
Physicians will be required to make a significant financial investment to update their existing
hardware and office computer systems, and then install the technology for use. They will also be
required to invest significant "sweat equity" and staff time in terms of training, implementation,
and use in order to take full advantage of the benefits of the electronic medical records system.
While in its early stages of use, when fully implemented the electronic medical record
system developed by eClinicalWorks will enable health care providers and professionals to
manage patient flow, immediately access patient records in-house or remotely, electronically
communicate with referring and consulting physicians, and securely send clinical data. Unified
with its practice management solution, the electronic medical record system will allow users to
easily review and complete patient histories, past visits, current medications, allergies, laboratory
tests, and diagnostic tests. Its registry reporting and clinical decision support features elevate the
role of the system from passively collecting information to actively helping physicians provide
optimal medical care.

-19-

With increased use of eClinicalWorks, physicians should be better able to monitor and
manage care for patients, promote patient safety, reduce costs, and improve overall patient health
because of better continuity and coordination in patient care. NPHO will have mechanisms in
place to monitor individual physician use of electronic medical records, and eClinicalWorks will
allow performance reports based in part on practice patterns. Data on NPHO physicians
(including utilization, outcomes, etc.) will be made available to the NPHO board, the Quality
Assurance Committee, and the entire panel of participating physicians. NPHO staff, at the
direction of the NPHO board, will track and identify the data, and share the aggregate data
among the appropriate parties. Key components of the electronic medical record system include:

The Oklahoma Physicians Health Exchange (OPHX®) will allow NPHO to extend the
benefits of the electronic medical records beyond the participating physicians to include hospitals
and potentially other providers. The interface creates the ability for health care providers to
securely share facets of patient care, including electronic referrals, patient record summary, lab
results and registry reporting. Using the OPHX®encourages community-wide reporting and
registry that facilitate outcomes analysis and increases compliance by measuring actual time and
cost performance and care improvements, creating efficiencies that benefit purchasers of health
care and their recipients.
Use of eClinicalWorks as a common platform for a community-wide health record
efficiencies.
eClinicalWorks has built-in

will facilitate referrals among participating physicians, minimize errors in

-20sharing medical history and demographic data, and minimize duplication of laboratory and
radiology testing. This capability will enhance care with every patient referral.
Further use of OPHX@ will allow NPHO to

Additionally, OPHX@ plans to participate in SMRTNET, a statewide network that is
being developed in Oklahoma. SMRTNET affiliation will allow further savings by allowing
access to some patient medical information that is generated or maintained by health care
providers who do not participate in NPHO. Because many NPHO patients receive care outside
of the NPHO network, inevitably important medical events (such as surgeries, allergic reactions,
immunizations, ER visits, and other events) occur without the knowledge of NPHO network
providers. SMRTNET will provide an additional opportunity for NPHO physicians to access
that information and, thus, to improve care for patients. OPHX® allows the Nurse Director of
Quality Assurance to examine patient files and make sure that physicians are following HEDIS
protocols, which is performance evaluation based on applicable evidence-based clinical
performance measures and benchmarks.
By joining the SMRTNET network, NPHO anticipates realizing even greater efficiencies
arising from expanded use of electronic records management. For example, participation in
SMRTNET will improve the coordination of patient care among patients in the Oklahoma City
metropolitan area, reducing the likelihood of unnecessary laboratory testing, improving
medication reconciliation, reducing hospital readmissions, decreasing some practice
administrative costs, and improving patient satisfaction, while lowering the cost of health care in
the region overall.
Continued investment from and participation of NRHS and other ancillary service
providers will also help to ensure that improvement initiatives cross the entire continuum of care,
improving access to all services, while better managing their utilization.

2.

Selectivity of Physician Members

NPHO recognizes that the ongoing selectivity of only those physicians who are
committed to NPHO's goals and requirements is essential to the Clinical Integration Plan's
success. The proposed, new Participation Agreement will require participation in the Clinical
Integration Plan as a condition of membership in NPHO. Once implemented, the new
Participation Agreement will obligate physicians to participate in all NPHO agreements, care
improvement activities, and electronic medical record initiatives described in this letter. NPHO
will also require that physicians agree to implement and be subject to performance evaluation
based on applicable clinical performance measures and benchmarks.
Physicians will initially be allowed to participate in or continue to participate in NPHO if
they satisfy the c.redentialing criteria, but their membership will be denied if they do not enter

-21into the new Participation Agreement, and expelled if they sign the Participation Agreement but
ultimately and chronically fail to comply with that Agreement. While NPHO is not being
especially "selective" per se in the first instance - by excluding in a significant way local
physicians from participation in the proposed program - NPHO's new, proposed program will
impose a number of requirements that are likely to discourage some physicians who are not fully
committed to the program from continuing participation and, thus, assure that those who do
choose to participate will be fully committed to its goals and requirements.
NPHO physicians will at first be largely self-selected by those physicians who recognize
the efficiency, value, and clinical benefits of an integrated practice and, therefore, agree to the
proposed, new Participation Agreement. Then, going forward, NPHO anticipates that some
NPHO physicians will "opt-out" on their own accord, as some physicians may not want to be
subject to the participation obligations. Importantly, in addition to this form of self-selection,
NPHO will implement comprehensive review processes to ensure physician commitment to
NPHO's objectives. These measures will largely take place under the auspices of the Quality
Assurance Committee, which will endeavor to be a fair arbiter of the Quality Assurance Plan.

3.

Development of Clinical Performance Measures - Quality Assurance
Committee

NPHO plans to expand current quality improvement initiatives to accelerate
improvements in the delivery of health care services that could not be achieved if physicians
worked independently. NPHO will obtain input, advice, direction, and recommendations from
all NPHO participating physicians to ensure that the measures tracked are appropriate and
meaningful. To this end, NPHO has already formed a Quality Assurance Committee and has
recently hired a full-time nurse to help design and implement the program. Going forward,
NPHO expects that the Quality Assurance Plan will include incentives and mandate corrective
action, potentially including education, counseling, financial withholds or penalties, and, in some
cases, expUlsion from NPHO for physicians whose practices are incompatible with NPHO's
objective of offering high-quality, clinically integrated care in an efficient manner.

Clinical Practice Guidelines and Disease Management. As noted above, NPHO is
currently utilizing HEDIS clinical practice guidelines. While the details remain to be specified,
NPHO is in the process of developing clinical practice guidelines and believes that the utilization
of the electronic medical record system by the Quality Assurance Committee and NPHO staff
will allow it to supplement nationally-recognized performance measures with additional
evidence-based practice guidelines across a number of specialties.
For example, NPHO is beginning the process of implementing disease management
processes for reducing health care costs, improving quality of life for individuals, and preventing
or minimizing the effects of a disease (usually a chronic condition) through integrative care. To
date, NPHO staff, through its recently hired quality assurance nurse, has acted primarily in a
data-collecting mode. Going forward, NPHO initially will consider monitoring some of the
chronic disease processes that most affect its patients: coronary heart disease, chronic
obstructive pulmonary disease, kidney failure, hypertension, heart failure, obesity, diabetes
mellitus, asthma, cancer, arthritis, and other common ailments. NPHO envisions health care
costs decreasing and quality of care improving as a result of this effort. NPHO also believes that

-22the collaboration required for implementing the benchmarks and disease management processes
will be an excellent means of fostering interdependence between NPHO physicians. 2

Quality Assurance Committee. As previously noted, a Quality Assurance Committee
will manage and oversee quality improvement activities. At least one full-time quality assurance
nurse will review patient charts and records for adherence to the HEDIS disease-state, evidencebased medicine guidelines adopted by NPHO and the Quality Assurance Committee. The
Quality Assurance Committee will seek to identify instances of both overutilization and
underutilization of services, and work with physicians to address these issues. For its disease
management program, NPHO will begin with nine disease states, with an expectation of
increasing to as many as 50 disease states over time.
The NPHO will develop clinical guidelines with the goal of reducing morbidity and
mortality and minimizing unnecessary costs. NPHO will initially focus on disease states that
affect the largest number of patients (such as hypertension) and on diseases that carry the highest
morbidity (such as diabetes). The selection of specific disease states will be made at the
physician specialty level. For example, the primary care specialists may choose to focus on
diabetes care, while the surgeons may decide to focus on post-operative infection issues, and
obstetricians may choose to focus on C-section rates. This will ensure broad participation by
participating physicians and will ensure that guidelines are developed by those with the expertise
to implement them. The Quality Improvement Committee will provide input and oversight, but
the initial oversight will be placed on the specialists. NPHO expects that over time new
guidelines will be established as old ones become incorporated into standard practice, thus
ensuring ongoing improvement.
The Quality Assurance Committee will provide the general management and oversight of
the clinical practice guidelines and disease management processes. The Quality Assurance
Committee, with the use of ad hoc sub-committees as necessary, will:
(a) set the measures for individual and group performance;
(b) monitor individual physicians' compliance with the network's standards;
(c) counsel physicians to improve their performance, as necessary; and
(d) evaluate aggregate network performance against stated goals and, as necessary, reevaluate and modify the stated goals and processes.
In the process of establishing the performance goals and standards, specialists will have
the opportunity to participate in the Quality Assurance Committee's (and any sub-committees')

-23-

development and implementation of the measures. Committee participation will be mandatory,
which should assure broad participation in the development of clinical practice guidelines.
To facilitate monitoring, NPHO staff, at the direction of the Quality Assurance
Committee, will perform medical records audits remotely via the Electronic Health Exchange
software (eEHX/OPHX®). NPHO will generate regular reports on individual and aggregate
physician compliance rates. NPHO anticipates that the reports will include the following
information: (a) individual physicians' compliance rates under applicable measures; (b)
comparison of the physicians' compliance rate with their previous performance (i.e., an
individual baseline comparison) and with their peers; and (c) calculation of a cumulative
compliance rate for each clinical measure for all physicians for whom the measure is applicable.
To ensure compliance, reports will be shared with NPHO physicians as a group. Internal
publication of this data should not only make individual physicians and NPHO as a whole
accountable for their performance, but will also highlight the benefits of NPHO's practices to the
marketplace and facilitate physician interdependence. Moreover, in recognition of the fact that
an inability to consistently enforce the Clinical Integration Plan would frustrate the NPHO's
stated goals, NPHO will require, as a condition of participation, that physicians agree to be
subject to performance evaluations based on compliance with appropriate and applicable clinical
performance guidelines.
While NPHO is in the earliest stages of determining the precise metrics that will be
measured, it expects to identify physicians who appear to be high-cost providers or inappropriate
users of resources, to measure physicians' compliance with clinical practice guidelines, and to
track intra-network referral rates. Mter the precise metrics are determined, NPHO anticipates
that physicians will receive regular performance evaluations from NPHO staff, and those who do
not adhere to guidelines will be formally subject to a series of progressive corrective steps,
beginning with education, counseling, and corrective action plans, and, as necessary, moving on
to reprimands and financial penalties, with removal from NPHO as the ultimate action.
Historically, NPHO has not had to deal with physicians who perform at unacceptable levels.
However, NPHO will implement an active and ongoing program to evaluate participating
physicians and create a high degree of interdependence, interaction, and cooperation among the
physicians to control costs and ensure high standards of care. Non-compliance may also be
managed using financial withholds or penalties.
To further encourage compliance with the Clinical Integration Plan, NPHO anticipates
the use of appropriate incentives. For example, based on data collected, NPHO may seek to
negotiate with Payers for fee increases based on its efficiency and quality initiatives, for sharing
in cost savings, or other financial incentives. Moreover, if the Clinical Integration Plan is
successful, NPHO as a whole expects to be able to receive higher physician reimbursement rates
from Payers because of the demonstrated benefits to patients and Payers. To be clear, NPHO's
anticipated higher fee levels or shared cost savings are part of a program that seeks, and has the
real potential to achieve, overall greater efficiency and improved care, resulting in ultimately
lower costs of medical care for Payers. Increased reimbursement rates, as part of a clinical
integration plan, should not raise a concern for competition if it is part of an overall goal of
providing improved patient outcomes and lower total costs. Cost savings and quality
improvement require a significantly higher lise or physician resources to (lchieve. Tncre()sefl

-24reimbursement will be justified in part because of the increased use of resources, including
increased physician and staff time commitments and technology costs.
The comparison and evaluation of aggregate network performance data will be an
essential component of NPHO's Clinical Integration Plan. The Quality Assurance Committee
will review regular reports on the Plan's progress, and will periodically re-evaluate whether the
standards of care and efficiency goals are being achieved. The Committee will retrospectively
review whether particular measures were effective in modifying physician behavior, and whether
such measures and processes helped NPHO reach its goals of improved and more efficient
patient care.

3.

The Costs of Clinical Integration

Although NPHO physicians will not operate under common ownership, some level of
financial integration and interdependence will occur by virtue of required investment in the
electronic medical records system, withholds (which will likely increase depending on the
revenues generated as a result of the new plan), membership dues, and time commitment.
Financial integration will likely be increased to some degree, as the percentage of revenues
generated by NPHO increases and is specifically linked to quality through clinical integration.
While the Clinical Integration Plan is still in many respects in the early stages of
development, NPHO believes that full implementation of the Clinical Integration Plan will
require that NPHO retain at least two specified full-time-equivalent employees - one quality
assurance nurse and one eClinicalWorks trainer - dedicated to the implementation and execution
of the Plan. This will come at an estimated annual cost of
.
$150 000 for salaries

Each physician who plans to become or continue as a member of NPHO going forward
will be encouraged to obtain a license for the electronic medical record and electronic interface
software
as further described below will also be
to make
and

vU,,,"V"U,,"

One-Time Costs for Electronic Medical Records System

-25-

Annual Costs

In addition, each physician that obtains a license for the eClinicalWorks software will
also have to obtain extensive training for the physician, office manager, nurse, receptionist, and
billing person. The time commitment and allocation of staff resources for implementation is
substantial. NPHO estimates that the dollar value of lost patient revenue due to time spent on
training of physicians and their staff in the utilization of the electronic medical records system
will exceed $3,000 per physician.
Finally, physicians will be required to commit substantial time in developing,
implementing, and monitoring compliance with clinical practice guidelines. As noted above,
NPHO will initially take volunteers to participate in the Quality Assurance Committee and assist
the Committee on an ad hoc basis with such tasks as providing medical education and
information about clinical practice guidelines and disease management protocols; conducting
medical records audits and making recommendations for improvement; assisting with risk
NPHO expects that virtually all of
management; and mentoring other NPHO physicians.
NPHO's members will actively participate in the implementation of some component of the
Quality Assurance Plan. It would require speculation in advance of the implementation of the
Quality Assurance Plan to estimate the time commitment required. NPHO believes that, on
average, this commitment will be equal to or greater than the requirements for implementing the
electronic medical records system.
C.

Organizational Arrangements for Clinical Integration

NPHO leadership, designated members of NPHO committees, and mentors, along with
NPHO staff (including the additional staff members that NPHO proposes to be hired), will be
responsible for implementation of the Clinical Integration Plan. Their duties will be as follows:
•

The Medical Director will provide medical leadership for the Clinical Integration
Plan working with NPHO participating providers, committees, and staff to direct
timel y and consistent implementation.

•

Chaired by the Medical Director, the Mentor's Committee will oversee global quality
improvement planning. Membership of the committee will be comprised of physician
leaders elected by their respective clinical departments within NRHS.
o The members will include one General Internist, one Family Practitioner, one
General Surgeon, one Obstetrician/Gynecologist, one Pediatrician, one specialty

-26Surgeon (representing, but not limited to, one of the following surgical
specialties: Cardiovascular Surgery, Otorhinolaryngology, Neurosurgery, and
Orthopedic Surgery), one specialty Internist (representing, but not limited to, one
of the following medical specialties: Cardiology, Nephrology, Neurology,
Endocrinology, Gastroenterology, and Pulmonology) and one Emergency
Medicine specialist.
o The Mentor's Committee will be responsible for establishing and approving
evidence-based medicine clinical guidelines that may cross specialty lines,
approving performance targets and enforcing adherence to approved guidelines
through mandated educational activities, increased monitoring, financial
withholds and, if necessary, removal from participation in NPHO.
o The Mentor's Committee will continue to approve additional clinical practice
guidelines. The Mentor's Committee may also develop a patient satisfaction
survey. The results of this survey may be used as one measure of quality of care
for NPHO providers.

• Specialty Advisory Groups (SAGs) will be established for each medical department
of NRHS and will be chaired by the chief of each department. All of the NPHO
physicians will be members of the appropriate SAG and will be required to actively
participate in the SAG. The groups will meet at least once annually to establish or
review clinical practice guidelines and performance targets applicable to their
respective specialties and report their decisions and performance targets to the
Mentor's Committee. Meetings will also serve as a forum for monitoring peer
performance and working with peer's to address significant deviations.

• The Medical Informatics Officer has specialized in the management and processing
of data, information, and knowledge in the health care arena and will help to
transition the NPHO participating physicians who invest in electronic medical records
and electronic interface from their current data and record-keeping environment. The
current Medical Informatics Officer also serves in a similar capacity for the
Oklahoma Hospital Association and will ultimately assist NPHO to network with the
local RHIO and other RHIOs across the country.

• The Director of Quality Assurance will assist the Mentor's Committee and support
the activities of each SAG. The Director of Quality Assurance will participate as a
non-voting member of each SAG.
o

o
o

She has begun supervising the collection of performance data, and will report
summary results to the Mentor's Committee and individual data to individual
providers.
As clinical practice guidelines are developed, she will also perform chart audits to
assess compliance with guidelines.
In addition, she will assist with the promotion of the benefits of clinical
integration by engaging in discussions with Payers to maximize understanding
and use of clinical integration.

-27-

o The Director of Quality Assurance will also work with the NRHS Utilization
Review/Quality Assurance Department to facilitate improvements in care and
utilization where appropriate.
o Additionally, she may work to develop programs to promote the mission of
NPHO, including direct patient education, a disease registry to target high risk
populations of patients for special intervention, disease management programs,
readmission prevention protocols, and physician education.

• The Executive Office of NPHO will be responsible for the administrative functions of
the Clinical Integration Plan, including the coordination of personnel managing the
clinical integration process, maintaining membership rosters and status, administering
annual payouts of earnings to successful providers based on pre-determined criteria
and formulas established by the quality improvement team members, cataloging of all
protocols, preparing minutes of meetings of the SAGs and Mentor's Committee,
conducting contract negotiations, arranging withholds to create a reimbursement pool,
and recruiting and supervising additional support staff as needed. The Executive
Office will also work with purchasers of health care to elicit feedback on the utility of
current efforts and to guide future efforts at improvement in care. At the discretion
of the Board, NPHO may pursue public relations and advertising activities designed
to bring quality initiatives to public attention.
NPHO Organizational Chart

-28An extensive time commitment will be required on the part of physicians serving in
leadership positions and as members of the various committees identified. NPHO pays Board
members a nominal fee for attendance at Board meetings. With the exception of the PHO Board
Chair and the Director for Medical Informatics, NPHO does not compensate physicians for their
administrative services.

Clinical integration is a complex endeavor. It requires planning, expenditures and
implementation at multiple levels of medical practice. NPHO has hired four full-time staff
members for electronic medical records management and training, rewritten its Physician
Participation Agreement to increase physician involvement and facilitate contracting on behalf of
member physicians, developed the OPHX® system, affiliated with SMRTNET, developed
outlines for organization of contracting specialty and quality improvement committees, and
begun "dry run" data extraction in anticipation of monitoring clinical quality data.
NPHO has yet to complete a number of important activities, such as:

• Establishing the Mentor's Committee and recruiting physicians to serve on the
•

•
•
•
•

•
D.

committee.
Developing the final details on clinical practice guidelines.
Establishing the Specialty Advisory Groups (SAGs) and coordinating an annual
meeting.
Determining membership for the Quality Improvement Committee.
Deciding the details relating to reimbursement for practitioners comply with clinical
practice guidelines and other aspects of the Clinical Integration Plan.
Marketing the Clinical Integration Plan to physicians and other providers.
Executing the new Physician Participation Agreement.
Community Impact of Clinical Integration

Clinical integration should have a favorable impact on NPHO participating providers,
Payers who contract with NPHO and patients in the community served by NPHO providers.

• Participating health care providers should experience increased practice efficiency

•

•

through consolidated NPHO contracting efforts, reduction of paperwork, greater ease
of scheduling, improved patient diagnosis and treatment plans through timely receipt
of diagnostic information and availability of patient care guidelines, seamless
referrals to specialists and admission to ancillary and hospital providers, reduction of
staff time required to duplicate medical records, and timely scheduling of patient care
services.
Payers should experience an immediate benefit from centralized NPHO credentialing
and contracting, as well as increased satisfaction among beneficiaries. In addition,
over time, NPHO's improvement initiatives should help to eliminate unnecessary
duplication of services, avoid preventable hospitalizations, reduce medical errors,
improve infection control rates, decrease hospital length of stay, lower re-admittance
rates, and provide for earlier disease detection, resulting in lower cost of care.
Patients should benefit from all of the above with the over arching benefit of improved
levels of care and better patient outcomes. Patients should also experience more

-29-

timely scheduling of primary and specialty care appointments, reduction of repetitive
completion of registration paperwork, and improved access to medications through eprescribing. Patients should also see improved adherence to preventive service, such
as mammograms and colonoscopies. The community should also benefit from
clinical integration efforts through an overall improvement in community health
status. In addition, enhanced control over health care costs and the potential for cost
reductions will serve as economic development tool for the recruitment of new
businesses and jobs.
By way of example of the community benefits to be achieved as a result of NPHO's
clinical integration, NPHO is currently participating with the University of Oklahoma in a
$500,000 Agency for Health Care Quality grant to assess the impact of the use of an electronic
medical record on quality improvement and cost reduction. This should help to demonstrate the
favorable impact for the benefit of Payers and patients alike. A copy of the research study
summary is provided as Exhibit VIII to this letter.
NHRS has also been awarded a Beacon Community Grant to demonstrate the impact of
electronic medical record and electronic health information exchange on the quality and cost of
healthcare. The Health-E Pyramid Project builds on current adoption of electronic medical
record by NHRS and NPHO to integrate a Personal Health Record (PHR) interface with unique,
patient-interactive features into SMRTNET. The PHR will provide patients with one centralized
location to digitally access their health care information and services, increasing patient
education, awareness, accountability and compliance with treatment plans. A detailed narrative
for the Beacon Community Grant and Health-E Pyramid Project is provided as Exhibit IX.
IV.

CONTRACTING ISSUES

NPHO currently contemplates that it will establish a contracting committee with primary
care and specialty representation. NPHO believes that the benefits of clinical integration will be
enhanced by allowing a contracting committee to commit all members of NPHO to those
contracts that the committee believes serve the best interests of NPHO members, with
reimbursement levels reflecting these improvements in cost and quality. The contracting
committee will be charged with evaluating each proposed agreement to determine whether
NPHO goals can be achieved within the framework of each specific plan.
The plan for future Payer contracting through NPHO encompasses the following steps.
First, a Payer would contact NPHO with respect to a contract. The NPHO Executive Director
will obtain information about contract terms from the Payer and will inform the Payer that
NPHO is contracting as a single integrated network of providers. If NPHO is able to reach
agreement with the Payer following negotiations, then NPHO would enter into the contract,
requiring all NPHO participating physicians, Hospitals, and ancillary providers to participate.
NPHO believes that this should create efficiencies for the Payers in terms of contract
negotiations, provider credentialing, and network development. In addition, for reasons
addressed above, Payers and their beneficiaries should benefit from better and more efficient
clinical care.

-30-

A.

Historical Approach to Contracting

From inception, NPHO used a messenger model to facilitate contracting between
participating providers and professionals, on the one hand, and area insurers, health plans, thirdparty administrators, and employers, on the other.
The NPHO Executive Director has served as the messenger. The Executive Director
meets with the individual Payers and discusses economic and non-economic terms of the
contract. If specific provisions raise a concern to of the Executive Director, a change or
clarification may be requested. Mter this process is complete, the Executive Director sends a
letter to NPHO physicians summarizing the terms of the contract and the fee schedule that the
Payer has offered. An Accept/Reject form with the name of the participating physician is
included with the summary, giving the physician the opportunity to either accept or reject
participation in the offering. The physician is not considered to have accepted until the form has
been returned. The Executive Director does not participate in price negotiations or make any
recommendations regarding fees and charges.
NPHO has signed agreements with a variety of Payers, including PPOs, HMOs, and
Medicare Advantage plans, and directly with employers that are large enough to be partially selfinsured and utilizing third-party administrators. These are fee-for-service arrangements. As of
August 1, 2010, NPHO has 24 separate agreements with various Payers. Exhibit X includes a
table showing the number NPHO physicians participating in the various networks, which ranges
from 107 to 237.
B.

Proposed Approach to Contracting

Going forward, physicians will continue to join NPA and NPHO through the NPA
application process described above. NPHO proposes that it will manage and direct the
contracting process with Payers, including negotiation of all contract terms.
Physicians, hospitals, and other health care providers and professionals who are
interested in participating (or continuing their participation) in NPHO will be required to enter
into a new Participation Agreement with NPHO. Under the proposed, new Participation
Agreement, health care providers and professionals will be required to actively participate in
quality assurance programs and activities of NPHO. Historically, NPHO has not required
participating health care providers and professionals to participate in any specific provider
network. Instead, NPHO health care providers and professionals have historically decided
independently whether or not they wish to participate in any specific network or networks.
The proposed, new NPHO Participation Agreement provides that participation in NPHO
is non-exclusive so that each health care provider and professional may contract directly with
health insurers, health plans, third-party administrators, and employers to participate in their
respective networks. NPHO will not require any participating physician to negotiate and
contract exclusively through NPHO. As a result, NPHO health care providers and professionals
may continue to provide care to patients outside the provider networks established by NPHO.

-31-

As noted in Part IILB above, the NPHO board has approved the new form of
Participation Agreement (see Exhibit VII), but NPHO has not yet entered into the new
Participation Agreement with any member yet. If a physician who is a member of NPHO plans
to continue as a member of NPHO, the physician will be required to enter into the new form of
Participation Agreement.
Under the proposed, new Participation Agreement, in addition to the electronic medical
record and clinical commitments noted in Part IILB above, each participating physician must
agree that if NPHO has entered into an agreement with a Payer, the physician will provide
covered services under NPHO's agreement with the Payer and will not separately contract with
that Payer for the provision of covered services. Additionally, the participating physician must
accept the terms and conditions of each Payer agreement, including terms relating to prices, fees,
charges, reimbursement, withholds, and risk pools, where applicable. The Participation
Agreement further provides that a participating physician may otherwise participate in any other
health network and provide medical services independently of NPHO, as long as such
participation does not preclude the physician from complying with the terms of the NPHO
Participation Agreement.
The proposed, new Participation Agreement will permit NPHO to market products to
Payers that are approved by its Board of Directors; use its best efforts to enter into Payer
agreements with financial incentives for use of participating physicians; and use its best efforts to
secure agreements that require Payers to provide members a greater level of coverage of
services, if such services are obtained from participating health care providers.
C.

.loint Contracting is Subordinate, Ancillary, and Reasonably Related to the
Clinical Integration Plan

NPHO believes that this proposed joint contracting with Payers on behalf of its
competing physician members is subordinate, ancillary, and reasonably related to its plan to
clinically integrate its members' provision of services and to deliver coordinated care by a group
of health care providers committed to the Plan because it will provide a stable and identifiable
roster of physicians and facilitate in-network referrals, thus increasing patient volume and
harnessing network effects and economies of scale, while providing efficiencies and reducing
transaction costs to both physicians and Payers. Finally, NPHO will take steps to limit any
anticompetitive "spillover" effects from the proposed joint contracting.
Providing a Stable and Identifiable Roster of Physicians. All NPHO physicians will be
required to participate in all Payer contracts negotiated by NPHO, and NPHO believes that
clinical integration will be facilitated by this requirement. Specifically, NPHO believes that this
requirement will help to assure that the panel of physicians providing services under the program
is clear, identifiable, and consistent and unlikely to vary from contract to contract.

Ensuring a consistent panel of physicians will necessarily be complicated by periodic
physician attrition, as well as the periodic addition of new physicians and perhaps dismissal of
non-compliant physicians, but the fundamental goal of having a stable, clearly identified, and
consistent panel of physicians will not change. In any event, joint contracting would be better in
this regard than the nearest alternative - the messenger model.

-32-

Facilitating In-Network Referrals. Mter the new Participation Agreement is in place,
NPHO will operate as a single integrated network with all participating providers working
together to achieve clinical integration. Accordingly, NPHO physicians will be required to refer
patients to other NPHO physicians when it is medically appropriate to do so and the patient is
amenable to the referrals. NPHO believes that joint contracting will reinforce the in-network
referral requirement because, if different physician panels represented a subset of NPHO's
membership for each Payer contract, physicians are more likely to have to refer to physicians
outside the NPHO network.
Increasing Patient Volume and Harnessing Efficiencies of Scale. Related to the topic
of in-network referrals, to best integrate the program's quality improvement initiatives into the
physicians' practices and to reap the full benefit of the network effects of the electronic medical
records system, NPHO believes is desirable to maximize the number of patients in each
physician's practice. In this regard, the more patients that each NPHO physician sees, the more
interdependent they become with other participating physicians, because all physicians indirectly
benefit from the network effects of additional data points and experience gained from treatment
of each patient. With increased patient volume, joint contracting will necessarily encourage
increased information (and improved clinical practice). Each additional data point provides
broader benefits to all network physicians, patients, and Payers. Without joint contracting,
NPHO's ability to obtain information on both patients and physicians would be more difficult,
the results of its data collection less robust, and its evaluation of that data and implementation of
practice protocols - key components all - would be undermined and rendered less effective.
Absent joint contracting, the physicians may lack the patient volume that would provide
sufficient incentives for their substantial investment in the success of the integrated program.
NPHO believes that the more patients a physician sees in the proposed program, the more likely
the physician will be willing to invest the necessary time and effort in the various aspects of the
program's operation.

Providing Efficiencies and Reducing Transaction Costs to Payers and Physicians.
Joint contracting as part of a broader suite of clinically integrated services should be attractive to
Payers not only because it helps to control costs and minimizes transaction costs, but also
of
because it provides going-forward
to health
contact. As evidence of these· benefits

Joint contracting will likewise provide an incentive to physicians to join the network, as
physicians will not only benefit from the clinical network effects, but will also be able to
delegate this function to a central organization and avoid the negotiation process, which is often
disruptive to their practice as it requires them to get up to speed on various contractual matters.
On the whole, this allows doctors to focus their time and energies on patient care, rather than
contracting matters, which should ultimately benefit both patients and their physicians.

-33-

Limiting Anticompetitive "Spillover" Effects. The FfC has noted that it would have
serious concerns if a proposed clinical integration would facilitate physicians' agreements to sell
their services outside of the joint venture network. 3 To be clear, NPHO physicians will not
collectively set the prices they will charge to any patients who are not covered by the health
plans with which NPHO bargains. NPHO will take steps to ensure this, including limiting its
physician members' access to competitively sensitive information (such that only non-physician
staff will see actual physician prices). Additionally, NPHO will inform physicians of restrictions
to ensure that harm to competition does not occur from the possibility of coordinated interaction.
Finally, NPHO hospitals and physicians do not have a large market share in the NPHO service
area, and NPHO is a non-exclusive network. It would make little sense for a non-exclusive
network with very limited, if any, ability to exercise market power to go to the expense of
implementing a clinically integrated collective negotiation arrangement in order to reduce output
or increase prices if, as here, Payers could simply avoid contracting with NPHO.
In sum, the success of NPHO's program depends significantly on all of its physician
members participating in all of its contracts. Achieving NPHO's goals - collecting and
harvesting robust and meaningful data, providing practical and effective clinical guidelines and
disease management protocols, and ensuring efficient care - would be far more difficult if
different physicians were participating in different Payer contracts, referral patterns had to be
adjusted accordingly to keep patients within the applicable network, patient volume was lower,
and information on patient treatments and health care provider behavior were less robust and
uniformly available. Absent the joint contracting, the planned benefits, while theoretically
possible, are not practical given business realities.

v.

LEGAL STANDARD AND CONCLUSION

The FTC and DOl's 1996 Statements of Antitrust Enforcement Policy in Health Care
("1996 Health Care Statements") explain that clinical integration may be demonstrated, by way
of example:
by the network implementing an active and ongoing program to evaluate and
modify practice patterns by the network's physician participants and create a
high degree of interdependence and cooperation among the physicians to control
costs and ensure quality. This program may include:
(1) establishing
mechanisms to monitor and control utilization of health care services that are
designed to control costs and assure quality of care; (2) selectively choosing
network physicians who are likely to further these efficiency objectives; and (3)
the significant investment of capital, both monetary and human, in the necessary
infrastructure and capability to realize the claimed efficiencies. 4

3

See, for example, the FrC/DOJ 1996 Statements of Antitrust Enforcement Policy in Health Care, Statement 8, §
B, available at http://www.ftc.gov!bc!healthcare/industryguide/policy/statement8.htm.

4

Joint 1996 Health Care Statements 8, § B.l. The Joint 1996 Health Care Statements emphasize that these are
only examples, rather than "the only types of arrangements that can evidence sufficient integration to warrant rule
of reason analysis."

-34-

NPHO submits that, with implementation of its Clinical Integration Plan, it will be a fully
clinically integrated, centrally managed joint venture offering substantial market efficiencies and
facilitating innovation in the delivery of health care services to patients as described in
Statements 8 and 9 of the Health Care Statements. Its proposed joint contracting system is not
inherently anticompetitive and should be analyzed under a truncated rule of reason analysis,
rather than per se prohibited.
Specifically, and by way of review, through its electronic medical records system,
proposed clinical guidelines, disease management program, Quality Assurance Committee,
monitoring and enforcement mechanisms, and substantial financial and "sweat equity"
commitments, NPHO will operate in a manner that creates a high degree of interdependence,
interaction, and cooperation among participating physicians and health care providers in order
improve access to care, enhance quality of care, and control costs. NPHO has created an
infrastructure of pooled resources; has approved and is beginning to monitor and establish
protocols and evidence-based clinical practice guidelines; and has formulated a plan that should
result in delivery of improved quality of care in a more efficient manner that the participating
providers and professionals could not otherwise achieve independently.
NPHO is implementing an active, dynamic, and ongoing Clinical Integration Plan.
Components of the Plan include outcomes reporting, managing the care continuum, reducing
costs, information sharing, creating clinical practice guidelines, monitoring utilization,
controlling compliance with clinical practice guidelines and related protocols in an effort to
provide better patient care and treatment, and taking corrective action when necessary. The
anticipated results include improving access to care, enhancing quality and efficiency of care,
and ultimately improving the health of the communities served. Participation requires a
significant investment of time and capital in the necessary infrastructure and capability to realize
the anticipated benefits and effectiveness. The use of the eClinicalWorks electronic medical
record is critical to clinical performance and organizational viability. It positions the
participating providers and professionals to better manage patients, successfully control costs,
limit practice variations, and achieve significant differentiation in the market. Also, the
electronic medical record will enable the participating providers and professionals to adopt and
effectively execute clinical practice guidelines and new concepts anticipated from comparative
effectiveness research initiatives.
The attributes of NPHO under the Clinical Integration Plan will transform from a
traditional physician-hospital organization into one with:

• Information continuity

• Care coordination and transition
• Peer review and teamwork for high-value care
• Easy access to appropriate care

• System accountability
• Continuous innovation
The Plan allows the participants to re-position their services to align with market trends,
as well as transparency in quality and cost in order to demonstrate better outcomes and
successfully compete in a value-based purchasing environment. It facilitates meaningful use by

-35participating hospitals, physicians, and others of a fully integrated and coordinated electronic
medical record. It bears the commitment from medical leadership to share outcomes data - peer
to peer - and evaluate the findings in a coordinated and quality-focused manner. It presents an
opportunity for medical leadership to intervene and make improvements where outcomes data
reveal that quality is not at targeted or required levels. And it ensures that medical leadership
will receive continuing and useful training, education, and support to successfully manage high
integration and top quality challenges.
The proposed collective negotiations with Payers, including price negotiatIOns, are
subordinate and reasonably necessary to achieve substantial efficiencies arising from clinical
integration. Joint negotiation through NPHO will ensure that a sufficient, stable, and identifiable
number of physicians across multiple specialties will continue to participate in NPHO. It will
facilitate in-network referrals and ensure adequate patient volume to benefit from economies of
scale and incentivize physician involvement. It will allow participating physicians the
opportunity to reduce transaction costs, including costs of legal review, that are incidental to the
contracting process, in part offsetting the substantial time and financial investment made in
connection with NPHO participation. Additionally, collective negotiations will allow NPHO to
offer a single, comprehensive, integrated network, allowing for pricing in the aggregate, instead
of separate contracts. Finally, NPHO will take steps to limit any anticompetitive "spillover"
effects from the joint contracting, such as coordinated physician agreements with regard to nonnetwork Payers.
NPHO's proposed, new Clinical Integration Plan involves a powerful platform for
hospitals, physicians, other health care professionals, and other health care facilities and
institutions to build relations and foster integration. NPHO believes that its proposed joint
contacting should be considered ancillary and subordinate to the joint venture, reasonably
necessary to the Clinical Integration Plan's success and the efficiencies it will make possible, and
thus analyzed under the rule of reason.
REQUEST FOR ADVISORY OPINION

On behalf of NPHO, we request an advisory opinion as to how the FTC would analyze
NPHO's activities if, based on the foregoing information and proposed clinical information plan,
NPHO develops contract proposals, negotiates contract terms (including price terms), arranges
contract participation, and enters into contracts on behalf of NPHO participating health care
professionals and providers.
If you have any questions, please
(dan.loeffler@mcafeetafLcom, (405) 301-7406).

contact

either

Very truly yours,

Michael E. Joseph

me

or

Dan

Loeffler

-36-

cc:

Mr. Markus H. Meier
Mr. David Narrow
Mr. Daniel A. Loeffler

Exhibit I
Organizational Structure

The following chart shows the organizational structure and relationships among NPHO
members:

Exhibit II

Exhibit III
NPHO Board of Managers

The following table lists the members of the NPHO Board of Managers.
Norman Physician Hospital Organization
2009 Board of Managers
",;"

,

·. . )''';~:z,t,{{< .

N~m~···

....!,(y<',.

Stephen Connery, M.D., Family Practice (Chairman)
Robert Holbrook, M.D., Gastroenterologist
Tadgy Stacy, M.D., Pediatrician
Joe Voto, M.D., Anesthesiologist
Carol Anderson, D.O., Ob-Gyn
Tom Connally, M.D., General Surgeon
James Love, M.D., Internal Medicine
Chris Paskowski, M.D., Otorhinolaryngologist
Meegan Carter, VP Revenue Cycle
David Whitaker, President & CEO

,
.'

I'iit;

:..
<'2".: Teriif.~*pit~s ... ;" . ?".
2011
2011
2011
2011
2012
2012
2012
2013
NRHS Board Representative
NRHS Board Representative
'

'

'"';.

~

Exhibit IV
Norman Physicians Hospital Organization Staff
A brief overview of the background of each NPHO staff member appears below.
Gary P. Clinton, D.Ph. has served as the Executive Director of NPHO since 1995,
helping to guide and manage the organization through various stages of evolution and
growth. Beginning his healthcare career as a pharmacist, he has owned or managed
several healthcare organizations including a pharmacy, durable medical equipment
provider, and home health agency providing him with the clinical and business
backgrounds necessary to function as an effective leader of NPHO. He is a graduate of
the University of Oklahoma.
Stephen E. Connery, MD has chaired the NPA and NPHO since 2004. Board certified
in family practice, Dr. Connery has operated a private practice in Norman since 1989 and
maintains medical staff privileges at Norman Regional Hospital, and Seminole Hospital
in Seminole, Oklahoma. He also serves as chairperson of the medical staff evaluation
committee at Norman Regional Hospital. Dr. Connery received his graduate medical
education and family practice residency training at the University of Oklahoma College
of Medicine. Professional memberships include the American Medical Association,
Oklahoma State Medical Association, and American Association of Family Practice.
Kathryn Roberts, R.N. has served as the Director of Quality Assurance for NPHO since
In this role, she is responsible for the design, development,
February, 2009.
implementation, maintenance, and evaluation of all quality improvement programs and
initiatives for NPHO. She develops all policies, procedures, protocols, and guidelines,
utilizing national standards of evidence-based medicine. Additionally, she assists the
NPHO Board regarding performance improvement. As the Director of Quality
Assurance, she also plays a primary role in all clinical integration efforts.
Audene Eubanks is the Supervisor, Contracts and Accounts Payable for NPHO. She
also coordinates special NPHO projects and serves as a liaison with the physician
members. In addition, she is responsible for the NPHO website encompassing: links to
the NPHO participating providers; a health resources guide for patients and family
members; and secured physician access to NPHO information. Before joining NPHO,
Ms. Eubanks worked for 11 years as a medical assistant with responsibility for patient
evaluation and treatment, billing office management, and employee training.
Lynnette Chafin brings over 20 years of clinical and physician practice management
She is certified as an
experience to her position as eClinicalWorks Trainer.
eClinicalWorks trainer and provides physician practices with the support necessary to
evaluate, tailor, implement, and operate the eClinicalWorks electronic medical record
system.
Leigh Anne McGregor brings over 20 years of clinical and physician practice
management experience to her position as eClinicalWorks Trainer. She is certified as an
eClinicalWorks trainer and provides physician practices with the support necessary to

-2-

evaluate, tailor, implement, and operate the eClinicalWorks electronic medical record
system.
Rhonda LeMay is a trained eClinicalWorks "super user" who assists with the initial
implementation of the electronic medical record in physician practices and provides
ongoing staff and physician support. She has 16 years of experience in the medical field
and uses her knowledge of front office, back office, and clinical functions to ensure
smooth physician office transition to electronic medical record.
Brian Yeaman, MD is the director of physician informatics for NPHO and installation of
eClinicalWorks in Norman. He is leading the effort in Norman to create the local
network through NRHS and NPHO and has played a key role in the quality improvement
and quality assurance processes of the clinical integration model. The local network
design and governance has been facilitated by SMRTNET and NPHO. Dr. Yeaman is also
the chief medical information office at the NRHS and is the Medical Director for the
GOCHC SMRTNET effort. Dr Yeaman trained at Tufts University in Boston and
continues to operate a family practice at the Norman Clinic.

Exhibit V

Exhibit VI
Market and Demographic Information

Exhibit VI.A
Norman Physician Hospital Organization
Service Area Profile

Characteristic
Population, 2000
Population, 2008
Land area, 2000
(square miles)
Persons/square mile
Persons 65+, 2007
White persons, 2007
Black persons, 2007
American Indian &
Alaska Native persons,
2007
Persons of Hispanic or
Latino origin, 2007
Foreign born persons,
2000
High school graduates
(age 25+), 2000
Bachelor's degree or
higher (age 25+), 2007
Mean travel time to
work (min., workers
age 16+), 2000
Homeownership, 2000
Median household
income, 2007
Persons below poverty,
percent 2007

Oklahoma

Cleveland

660,450
706,617
709.9

208,016
239,760
536.1

65,519
69,616
787.7

45,513
51,066
1101

27,210
27,247
807.5

27,742
32,365
569.7

931.5
12.4%
74.5%
15.5%
3.3%

388.1
9.1%
83.1%
4.9%
7.9%

83.1
13.9%
79.6%
3.3%
11.4%

46.4
12.4%
88.2%
3.0%
5.2%

33.7
17.6%
85.9%
3.0%
7.7%

48.7
13.0%
89.7%
0.9%
5.6%

12.3%

7.2%

3.1%

4.3%

4.3%

5.7%

7.2%

4.4%

1.1%

1.1%

1.6%

2.6%

82.5%

88.1%

79.3%

79.5%

73.0%

79.3%

25.4%

28.0%

15.5%

14.4%

12.0%

15.7%

20.9

22.3

25.0

26.9

23.4

27.3

60.4%
$41,598

67.0%
$51,052

72.1%
$38,614

75.7%
$43,341

73.8%
$38,360

81.4%
$48,654

15.9%

10.0%

18.8%

14.1%

16.6%

10.0%

Exhibit VI.B
Norman Physician Hospital Organization
Profile of the Oklahoma City Metropolitan Area and NPHO Service Area

County

2000
Population

·~j,Q,$~~i'~e~Are~:t~{ni\·P"~}·.·.·.·,··' .

Cleveland
McClain
Garvin
Grady
Oklahoma
Pottawatomie
SA Total

208,016
27,742
27,210
45,513
660,450
65,519
1,034,450

2008
Population
':;?,~~;}\

. . . '.'

239,760
32,365
27,247
51.066
706,617
69,616
1,126,671

':Pl(J.M~tropolititij;,;Are~·'!;'·:;·::f;;c;>L?;·······:

2000-2008
Population
change

Land Area
(square miles)

F~:f };' ~)2~h> .~\
447.2
536.1
56.8
569.7
33.7
807.5
46.4
1,101.0
995.4
709.9
88.4
787.7
249.7
4,511.8
.'~\);. 'S. ?~,.' . . ~
·l~~;.·.H~~\
117.9
899.71
447.2
536.1
46.4
1101.0
33.6
957.7
51.2
744.5
56.8
569.7
995.4
709.9
218.
5,519

'~

15.3%
16.7%
0.1%
12.2%
7.0%
6.3%
8.9%

:";-:i,·t:'~;i\.",

'.

2008 Persons
per Square
Mile
.'

87,697
106,079
21.0%
Canadian
208,016
239,760
15.3%
Cleveland
45,513
12.2%
51,066
Grady
32,080
32,153
0.2%
Lincoln
33,924
38,102
12.3%
Logan
27,742
32,365
16.7%
McClain
660,450
706,617
7.0%
Oklahoma
1,095,422
1,206,142
10.1%
OKC MA Greater
OKC
;iOJ(C Cc)mJ>ine~le$t~tisti,~Ji~~i;ZAddit'QI).of ShawneeMicroUrban;Ar¢fllPoJtaw~t6Ihi~~G:6'unty":
88.4
787.7
65,519
69,616
6.3%
Pottawatomie
202.3
6,306.2
1,160,941
1,275,758
9.9%
OKC CSA Total

Exhibit VI.B (Cont'd)
Norman Physician Hospital Organization
Profile of the Oklahoma City Metropolitan Area and NPHO Service Area
Oklahoma City

Oklahoma City is the capital and largest city in Oklahoma, with city limits extending
beyond Oklahoma County into urban, rural, or suburban areas in Canadian, Cleveland, and
Pottawatomie counties. The city's estimated 2008 population was 551,789. Of the city's land
area of 607.0 square miles, 322.3 square miles are urban, resulting in 871.5 residents per square
mile. Oklahoma City is one of the most important livestock markets in the U.S. and receives
economic and employment support from several prominent energy companies, varied light and
heavy industries, Tinker Air Force Base, and the federal government. Oil, natural gas, and
petroleum products are major components of the economy.
Moore

Moore is a suburb with estimated 52,361 residents in the south Oklahoma City
metropolitan area with city limits extending into southwestern Oklahoma County and northern
Cleveland County. The city surrounds 1-35 between Oklahoma City and Norman. Moore's
population density has grown from 1,892.8 residents per square mile to an estimated 2,412.9 in
2009 reflecting a 27% population increase since the 2000 census. Moore is centrally located
between the state's capital to the north and the University of Oklahoma to the south. The city
has experienced recent growth in residential additions and commercial developments.
Norman

Norman is located in Cleveland County, approximately 20 miles south of downtown
Oklahoma City and immediately south of Moore. Norman is a well-established "college town"
with approximately 30,000 students. It is also the state's third largest city with a growing fulltime population of over 106,000 residents. The city's 2006 estimated population density was
540.6 residents per square mile.
Norman is the home of the National Storm Prediction Center, National Severe Storms
Laboratory, the National Weather Center, and many weather-related private businesses. In
addition to several research companies, the city has a variety of major employers and industries,
including SouthWest NanoTechnologies, York International/Johnson Controls, Hitachi, Astellas
Pharma, Albon Engineering, Xyant Technology and Office Max's National Sales Center.
Purcell

Purcell is south of Norman along the 1-35 and US-77 corridors. The city is a retail hub of
45,600 residents, including residents of neighboring communities and unincorporated rural areas
of McClain and southern Cleveland counties. The area's commerce benefits from several multimillion dollar horse farms.

Exhibit VI.C
Patient Populations and Insurance Coverage Estimates

As illustrated in the table below, U.S. Census data indicate that median household
incomes in the service area range from a low of $38,360 in Garvin County to a high of $51,052
in Cleveland County. Consistent with median household income data, almost 40% of Garvin
County households earn less than $25,000 per year as compared with about 25% of Cleveland
County households. Pottawatomie County has the highest percentage of persons living in
poverty.
Norman Physician Hospital Organization
Median Household Income & Poverty

% Households
MedianHH

Pottawatomie
State Average

34.4%
$41,551

16.6%
14.1%
10.0%
15.9%
18.8%
15.8%

Resident age distribution and household incomes drive the percentage of county residents
covered by Medicare and Medicaid. According to the Oklahoma Health Care Authority, almost
220,000 NPHO service area residents were covered by Medicaid in 2007, with another 134,000
covered by Medicare. The estimated percentage of residents who are uninsured approximates
200,000, ranging from a low of 15.8% of McClain County residents to a high of 19.6% of
Pottawatomie County residents. The economic downturn in the last two years has likely
increased the percentage of uninsured in all NPHO service area counties.

-2-

Norman Physician Hospital Organization
Insurance Coverage Estimates

Cleveland
Garvin
Grady
McClain
Oklahoma
Pottawatomie

16.4%
17.3%
16.0%
15.8%
18.2%
19.6%

14.3%
24.6%
19.6%
14.2%
21.6%
25.0%

9.7%
17.5%
13.6%
12.9%
12.2%
14.1%

75.8%
57.7%
66.6%
72.7%
66.0%
60.7%

NPHO serves the entire population of the NPHO service area, including the underinsured, uninsured, indigent, and self-insured through many forms of medical care. Among the
most frequently used facilities are the Emergency Departments of NRHS and Moore Medical
Center. Indigent patients and self-insured with limited resources can also utilize the Health for
Friends Clinic across the street from Norman Regional Hospital.
Most, if not all, NPHO participating physicians participate in Medicare and serve the
Medicare population, but the Medicaid population is not as well served. This is primarily due to
the fact that Medicaid is difficult to work with and hard to obtain reimbursement for services.
Most physicians would prefer to see a patient on Medicaid without compensation in their offices,
rather than work through the process of securing payment from Oklahoma's Medicaid program.
Norman Physician Hospital Organization
2008 Market Discharges by County and Payer Class
VN

2
redact3.doc

Workers

Other

Exhibit VI.D
Service Area Employers and Employees
Nearly 525,000 individuals in the NPHO service area were employed as of February
2008, with the unemployment averaging 3.5%. In Oklahoma County, Tinker Air Force Base, the
U.S. Postal Service, INTEGRIS Health, City of Oklahoma City, Oklahoma City School District,
W.H. Braum & Company, OU Medical Center, Federal Aviation Administration, AT&T, OGE
Energy, SSM Health Care of Oklahoma, Putnam City Independent School District, Edmond
Public Schools, Mercy Health Center, Moore Public Schools, Homeland Stores, and United
Parcel Service each employ 2,000 or more individuals and collectively represent 29% of total
county employment.
In Cleveland County, the University of Oklahoma is the largest employer in the area,
followed by Norman Regional Hospital. Other major employers in Cleveland County include
Norman Public Schools, Chickasaw Nation Industries (Riverwind Casino), York International,
and the City of Norman. The top 23 employers in Cleveland County collectively employ only
14.5% of county employees. A large percentage of employers in Cleveland County employ
fewer than 50 employees. Chickasaw Nation Enterprises is one of the largest employers in
McClain County, along with Purcell Municipal Hospital.
Although a few manufacturing companies are located in the service area, the largest
employers typically include local government, small community hospitals, small businesses, and
farms.
Based on the experience of NPHO, an increasing percentage of area employers, both
large and small, obtain insurance coverage for their employees through health plans and
networks established by third-party administrators, with a decreasing percentage of employers
maintaining self-funded plans.
NPHO currently serves as the primary healthcare provider network for the PPOs of three
employers in the service area, including NRHS, Oklahoma Electric Coop, and the student
population of the University of Oklahoma's Norman campus. NPHO also serves as the
secondary healthcare provider network for several employers with employees in the service area.

Exhibit VI.E
Health Insurance Plans, HMOs, Discount Medical Plans, Third-Party Administrators
Information regarding employee enrollment by health insurer is generally viewed as
proprietary and not readily available. However, health insurance plans, HMOs, Discount
Medical Plans, and third-party administrators are regulated by the Oklahoma State Department
of Insurance. While the data obtained from the Department of Insurance and provided below
reflect the state as a whole, the information is illustrative of the market served by NPHO.
According to the 2009 Annual Report and Directory issued by the Department of
Insurance, the following top 10 accident and health insurance companies have a combined
market share of over 70% of the $1 billion in premiums written in Oklahoma for group accident
and health insurance policies.
Norman Physician Hospital Organization
Top Oklahoma Accident and Health Insurance Companies
;ePIDpany')J\~:,/{1;:~>,:\. ':'!~J;~,: .... '. 1,.'i':(Direc,t'·~remilinrs':' '~;:~ark~t"Share;'~: ·!.j,'CmnUlative% ,~

United Healthcare Insurance
Aetna Life Insurance
Principal Life Insurance

249,245,727
169,289,023
169,112,491

23%
16%
16%

23%
39%
55%

Time Insurance
Metropolitan Life Insurance
American Fidelity Assurance

31,295,034
29,279,597
28,403,124

3%
3%
3%

58%
61%
64%

Hartford Life & Accident
Insurance
Connecticut General Life
Golden Rule Insurance
Unum Insurance of America
All Other
Total

26,882,047

3%

66%

22,749,114
22,285,619
22,212,976
292,844,420
1,03.599.172

2%
2%
2%
28%
100%

68%
70%
72%
100%

HMOs in Oklahoma wrote about $2.9 billion in health benefit premiums in 2009 including:
•
•
•

$1.4 billion in premiums for group and individual coverage
$.59 billion in premiums for federal employees health benefits
$.7 billion in premiums for Medicare beneficiaries

Exhibit VI.E (Cont'd)
Norman Physician Hospital Organization
Top Oklahoma HMOs

.'·,;U;1,j'2:h;<:u~.:<:.' :;.'?' Qi~.~~rfreniillms '. ,,:. ··::M;~tket Shai~,;r .•. CupIlUatjve %
·CgmpanY..Mt::···
47%
Healthcare Service Corporation
1,366,531,365
47%
CommunityCare
69%
626,017,668
22%
PacifiCare
81%
12%
340,528,140
Aetna Health, Inc.
86%
137,163,761
5%
89%
GlobalHealth, Inc.
100,553,538
3%
HCHC
91%
67,207,526
2%
Insurance
Services
Company
94%
65,828,369
2%
Delta Dental Plan of Oklahoma
Sterling Life Insurance Company
96%
55,958,412
2%
97%
Coventry Health and Life Insurance
51,478,375
2%
BlueLincs Inc.
98%
22,717,209
1%
All Other
100%
54,040,248
2%
Total
2,888,024,611
100%
The Department of Insurance also regulates discount medical plan organizations that
contract on behalf of plan members, in exchange for fees, with a healthcare provider or provider
network for access to medical services at a discounted rate and third-party administrators that
collect premiums and settle claims for health or life insurance coverage. The Department of
Insurance 2009 report lists 26 discount medical plans and 288 third-party administrators. NPHO
has helped to facilitate agreements between NPHO members to participate in the provider
networks established by CommunityCare, Aetna, BlueLincs, and PacifiCare, as well as other
smaller insurance plans.
Information regarding enrollment by specific insurance plan is considered proprietary by
most plans and is not readily available. However, based on data obtained from the Oklahoma
State Department of Health, residents of the service area generated about 154,000 hospital
discharges in 2008. Of these, about 40% were covered by Medicare, 2% by Commercial carriers
including managed care plans, and 22% by Medicaid. About 6% were classified as
uninsured/self-pay.

Exhibit VI.F
Norman Physician Hospital Organization
Medical and Surgical Services Provided by Participating Hospitals

Hospital Service
iY:~dical!SurfdffitJ$J{rYices

Norman
Regional
Health System
(NRH&MMC)
...

~esthesiology

BariatricIWeight Control Services
Cardiovascular Services
Cardiology
Cardiac Catheterization Laboratory
Thoracic Surgery
Cardiac Rehabilitation
Chemotherapy
Medical/Surgical Critical Care
Cardiac Intensive Care
Neonatal Intensive Care
Geriatric Services
Hemodialysis
Endoscopic Department
Obstetrics/Gynecology
Birthing Room/LDRP
General Medicine
General Surgery
Ambulatory Surgery Center
Oncology
Outpatient Surgery
Orthopedic Services
Computer Assisted Orthopedic Surgery
Orthopedics
Pediatrics
Pediatric Medical Surgical Care
Behavioral Health Psych Consultation
Psychiatric Emergency Services
Psychiatric Geriatric Services
Tobacco Treatment/Cessation Program
Neurological Services
Nuclear Medicine
Pain Management
Pulmonary Medicine
Shaped Beam Radiation System
Tissue Transplant
Trauma Center (Certified)
Urology

'.1~i,};i€!):::

"<..

X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X
X

.:

Moore
Medical
Center
(NRHS)

Norman
Regional
Hospital
(NRHS)
.•

.

.. . ';;0:,:
X
X
X
X
X
X
X

,~:

.~ ....

X

Purcell
Municipal
Hospital

., .,

.'i~;lb 'S(;1;S~:'
"j.\""

X

X

X

X

X
X

X
X

X
X

X
X

X
X
X
X

X

X
X

X
X

X
X

X
X

X
X
X
X

X
X

X

X

-2-

Exhibit VI.F (Cont'd)
Norman Physician Hospital Organization
Diagnostic and Ancillary Services Provided by Participating Hospitals
Norman
Regional
Health System
(NRH& MMC)

Hospital Service
~fJjuignostilS~iifl~:es

',,::,C';',i; ','

" /'>;:{"r:~:Eit,

'/'~;/'
>->,"

Diagnostic Imaging
Diagnostic Radioisotope Facility
BreastlMammography
Full Field Digital Mammography
CT Scanner
MRI
Ultrasound
Pathology
~-n,c:{[lary $ubp6tt&

Otbet'Seff{ttii(!;'

X
X
X
X
X
X
X

'."-';-:;

,-,-",-,

',:,;,:,

'::",,:"'.:-'.::":/

Occupational Health
Occupational Therapy
Physical Therapy
Physical Rehabilitation Outpatient
Services
Respiratory Therapy
Renal Dialysis
Intermediate Nursing Care
Swing Bed Services
Sleep Disorder Center
Speech Therapy
Ambulance Services
Ambulatory Surgery Center
Hospital-Based Outpatient Care
Services
Freestanding Outpatient Care Center
Immunization Program

X
X
X
X
X
X
X
X
X
X
X
X
X
X
X

2
redact3.doc

Norman
Regional
Hospital
(NRHS)

Moore
Medical
Center
(NRHS)

\~';':jX~t ?~iiF~~f~(~;~]l'{~:' ,' ,"

X

','

Purcell
Municipal
Hospital
~"~,Ii,:;\,

X

",>;'{)';f
X

X
X
X
X

X
X
'/?'~;;F;';';L,<

X

' ">:

"'/;;';:"',"

<:-'.,;,';:': -',

X
X
X
X
X
X

X

X
X

X

X

X
X
X

X

X

Exhibit VI.G
Ancillary Service Providers
As noted in the table below, other healthcare providers affiliated with NPHO include a wide
array of outpatient diagnostic, treatment, and rehabilitation services providing Payers and
patients with increased access to care.
Norman Physician Hospital Organization
Ancillary Service Providers

Medical Plaza Endoscopy Unit
Physicians Surgical Center
West Norman Endoscopy Center
Norman Endoscopy Center

Maysville Rural Health Clinic
Immediate Care of Oklahoma (3 locations)
Pulmonary Clinic

Norman Behavioral Health
Apple Medical
Norman Regional DME

.

Lifecare Oklahoma, Inc.
Home Health Care
Lifecare Oklahoma Hospice, Inc.

.....

Brookhaven Diagnostic Imaging Center
Moore Medical Center Diagnostic Imaging
Norman Open MRI
Norman Regional HealthPlex
),: Norman Radiology Services, Inc .
Norman Regional Hospital Diagnostic Services
Norman Regional Radiology Services
<~~ Norman Regional PET/CT Center
Orthopedic & Sports Medicine Center

Moore Medical Center
Norman Regional Hospital Diagnostic
Services
Norman Regional HealthPlex
Norman Regional Lab Service (3 locations)
Norman Regional Hospital
Purcell Municipal Hospital Laboratory

Purcell Municipal Hospital Radiology

Norman Regional Cardiac Rehabilitation
Norman Regional Occupational Medicine
Norman Regional Physical Performance Center

Exhibit VI.H
Physician Shortages in Selected Specialties
Application of physician demand models based on the current utilization and distribution
of physicians across the U.S. to the NPHO service area population suggests that there are
currently shortages of selected physician specialties. Shortages have been exacerbated by the
growth of specialty hospitals and ambulatory surgery centers in the market, making it difficult to
maintain specialty coverage for the general, acute care hospitals. In addition, about 20% of
NPHO service area physicians are age 60 and over, and they are likely to retire in the next five to
ten years when demand for healthcare services by the Baby Boom generation will reach its peak.
Physician supply and demand reports published by the Health Resources and Services
Administration (HRSA) of the U.S. Department of Health and Human Services in October 2006
and December 2008 indicate that the supply of Total Patient Care Physicians (including
residents) in the U.S. will increase by 13% from 2005 to 2020, falling short of the projected
required growth rate of 22%. Given changing physician practice patterns and the potential for
early retirement, these estimates may be conservative.
The table below applies HRSA current supply requirements to the 2010 estimated
population of the NPHO service area and indicates that the market may already be experiencing
shortages in internal medicine, pediatrics, general surgery, and obstetrics/gynecology before
consideration of the broader service area population that relies on the Oklahoma City
Metropolitan Area for healthcare services. Continued population growth, combined with
physician retirement and aging of the population, will extend physician shortages across many
other specialties.
Norman Physician Hospital Organization
NPHO Service Area Physician

Active Physicians by Specialty (Age<75)
Total
Total Non-Patient Care
Total Patient Care
Primary Care
General Family Practice
General Internal Medicine
Pediatrics
Medical Specialties
Cardiology
Other Internal Medicine
Surgical· Specialties
General Surgery
OB/GYN
Ophthalmology
Orthopedic Surgery
Other Surgery
Otolaryngology
Urology

Current
Supply

461
342
180
97

120
156
86
135
42
48

Note: Numbers in red indicate current shortage areas.

2010 SA Requirements
High Economic
Growth
Baseline
3,304
3,177
179
178
3,125
3,000
1,140
1,108
462
449
473
460
205
199
391
375
93
90
298
285
704
670
175
167
171
167
86
79
108
102
74
70
45
41
45
45

Exhibit VII

/
I

Exhibit VIII

Exhibit IX

Exhibit X

